APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Fourth Circuit
(September 24, 2020) . . . . . . . . . . . . . 1a
Appendix B Report & Recommendations in the
United States District Court for the
District of Maryland, Southern
Division
(January 14, 2020) . . . . . . . . . . . . . . . 4a
Appendix C Letter Order in the United States
District Court District of Maryland
(November 5, 2019). . . . . . . . . . . . . . 33a
Appendix D Order of Judgment in the United
States District Court for the District of
Maryland, Southern Division
(July 26, 2019) . . . . . . . . . . . . . . . . . 43a
Appendix E Memorandum Opinion in the United
States District Court for the District of
Maryland, Southern Division
(December 7, 2018) . . . . . . . . . . . . . . 45a
Appendix F Order in the United States District
Court for the District of Maryland,
Southern Division
(December 7, 2018) . . . . . . . . . . . . . . 81a
Appendix G Order in the United States Court of
Appeals for the Fourth Circuit
(January 20, 2021) . . . . . . . . . . . . . . 83a

ii
Appendix H Transcript of Jury Trial Proceedings
in the United States District Court for
the District of Maryland
(February 28, 2019) . . . . . . . . . . . . . 85a

1a

APPENDIX A
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
[Filed: September 24, 2020]
No. 19-2262
____________________________________
STEPHANE J. WANTOU SIANTOU, )
)
Plaintiff - Appellant,
)
)
v.
)
)
CVS RX SERVICES INC.,
)
)
Defendant - Appellee.
)
____________________________________)
No. 19-2313
____________________________________
STEPHANE J. WANTOU SIANTOU, )
)
Plaintiff - Appellee,
)
)
v.
)
)

2a
CVS RX SERVICES INC.,

)
)
Defendant - Appellant. )
____________________________________)
Appeals from the United States District Court for the
District of Maryland, at Greenbelt. Paul W. Grimm,
District Judge. (8:17-cv-00543-PWG)
Submitted: July 30, 2020
Decided: September 24, 2020
Before DIAZ, HARRIS, and QUATTLEBAUM, Circuit
Judges.
Affirmed by unpublished per curiam opinion.
Stephane J. Wantou Siantou, Appellant Pro Se.
Maurice Baskin, Washington, D.C., Richard Russell
Harris, Philadelphia, Pennsylvania, John B. Moretta,
LITTLER MENDELSON PC, Providence, Rhode
Island, for Appellee.
Unpublished opinions are not binding precedent in this
circuit.
PER CURIAM:
Stephane J. Wantou Siantou (“Wantou”) and CVS
Rx Services, Inc. (“CVS”) cross appeal from the district
court’s final judgment entered after a jury found in
favor of CVS on Wantou’s retaliation claim but declined
to award punitive damages. Wantou also appeals from
the district court’s grant of summary judgment to CVS
on his retaliatory termination claim. We have reviewed
the record and find no reversible error. Accordingly, we
affirm for the reasons stated by the district court.

3a
Wantou v. CVS Rx Servs. Inc., No. 8:17-cv-00543-PWG
(D. Md. filed Dec. 7, 2018 & entered Dec. 10, 2018; July
26, 2019; & Nov. 5, 2019). We grant Wantou’s motions
for leave to file briefs in excess of the page limitations
and to amend his response to CVS’s motion to strike.
We deny Wantou’s motion to strike CVS’s brief. We
grant CVS’s motion to strike solely as to Wantou’s
amended informal reply brief. We dispense with oral
argument because the facts and legal contentions are
adequately presented in the materials before this court
and argument would not aid the decisional process.
AFFIRMED

4a

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
(SOUTHERN DIVISION)
Civil Case No. 8:17-cv-543-PWG
[Filed: January 14, 2020)
____________________________________
Stephane J. Wantou Siantou,
)
)
Plaintiff,
)
)
v.
)
)
CVS Rx Services, Inc.,
)
)
Defendant
)
____________________________________)
REPORT & RECOMMENDATIONS
This “Report and Recommendations” addresses the
“Plaintiff’s Renewed Motion for Attorneys’ Fees,” the
supplemental pleadings filed related thereto, and all
memoranda in support of the same (ECF Nos. 172, 189,
194, 231) filed by Plaintiff Stephane Wantou Siantou
(“Plaintiff”).
Pursuant to 28 U.S.C. § 636, and Local Rule
301.5(b), the Honorable Paul W. Grimm referred this
matter to me to issue a report and make
recommendations. I have reviewed the abovementioned

5a
pleadings and the responses from the Defendant (ECF
Nos. 176, 198). I believe that the issues have been fully
briefed, and do not believe that a hearing is necessary.
L.R. 105.6. As set forth more fully below, I ultimately
recommend that the Court grant the motion for
attorney’s fees and award $162,092.63 in fees, as set
forth herein.
I.

FACTUAL
AND
BACKGROUND

PROCEDURAL

This protracted litigation began more than three
years ago on December 14, 2016, when Plaintiff,
without the assistance of counsel, filed a Complaint
against Defendant CVS1 (“CVS Rx”) in the U.S. District
Court - Northern District of Texas, alleging that he was
unlawfully terminated in violation of Title VII, 42
U.S.C. § 2000e. (ECF No. 1). Plaintiff subsequently
filed a motion to transfer venue to this Court, which
was granted. (ECF Nos. 7, 8). Thereafter on March 28,
2017, Daniel E. Kenney entered his appearance as
counsel for Plaintiff. (ECF No. 15).
On June 7, 2017, Plaintiff filed an Amended
Complaint, advancing four counts against the
Defendant: race discrimination (Count I) and
retaliation based on his protected class status (Count
IV); national-origin discrimination (Count II); and
gender discrimination (Count III), in violation of Title
VII, 42 U.S.C. § 2000e, and 42 U.S.C. § 1981, and the
Maryland Fair Employment Practices Act (“MFEPA”),
1

Plaintiff initially named “CVS” as the defendant, but later filed
an amended complaint that contained the Defendant’s correct
name “CVS Rx Services, Inc.” ECF No. 29.

6a
Maryland Code, Title 20, Section 20-601, et. seq.,
respectively. Plaintiff sought compensatory and
punitive damages. The Amended Complaint described
allegedly-discriminatory and retaliatory conduct that
occurred between November 2014-January 14, 2016,
which Plaintiff alleged was predominantly committed
by Plaintiff’s former supervisor, Tiana Holmes. The
allegedly-discriminatory conduct consisted of inter alia:
a November 2014 counseling for late arrival to work
and January 2015 and April 2015 reprimands for
leaving the pharmacy; as well as reprimands in August
2015, October 2015 following pharmacy audits; and
lastly, his termination on January 14, 2016. (ECF No.
29).
On August 15, 2017, Defendant filed a motion to
dismiss several of Plaintiff’s claims, asserting that
Plaintiff failed to administratively exhaust his Title VII
and MFEPA claims. Plaintiff decided not to challenge
the motion, and on September 19, 2017 the district
court granted the motion. (ECF Nos. 41, 42, 46).
Accordingly, two counts remained, and discovery
occurred related to those claims: racial discrimination,
in violation of 42 U.S.C. § 1981 (Count I), and
retaliation, in violation of Title VII, 42 U.S.C. § 1981
and MFEPA (Count IV). (ECF No. 46).
On May 18, 2018, Defendant filed a motion for
summary judgment on Counts I and IV, contending
that Plaintiff could neither establish retaliation nor
racial discrimination. (ECF No. 67, pp. 24-31). Plaintiff
countered that he had established a “plausible claim”
of discrimination under the statute as well as based on

7a
“disparate treatment between Wantou and [an
underling] by [his supervisor].” (ECF No. 71, p. 35).2
The Honorable Paul W. Grimm entered an order
and memorandum opinion granting Defendant’s motion
as to Count I, and granting in part and denying in part
the motion as to Count IV. Regarding Count I, the
district court held that Plaintiff failed to show that he
was treated differently than employees outside of the
protected class and that his termination was due to
racial bias. Regarding Count IV, the retaliation claims
related to the November 2014 counseling, January
2015, August 2015, and October 2015 reprimands and
his January 2016 termination were retaliatory. (See
ECF No. 82). In that memorandum opinion, the district
court denied Plaintiff’s request to file a surreply. (ECF
No. 82, p. 11 n. 7). Thus, what remained for trial is the
part of Count IV related to whether Defendant
retaliated against Plaintiff by issuing an April 2015
Level III reprimand.
On December 28, 2018, Defendant filed a motion in
limine, seeking to prevent Plaintiff from introducing at
trial evidence related to the dismissed claims, which it
deemed irrelevant. (ECF No. 87). Plaintiff filed a
response thereto, arguing that evidence leading up to
the April 2015 reprimand was relevant, e.g., to whether
he engaged in a protected activity, yet conceded that
certain evidence after the April 2015 reprimand was
not relevant, except possibly for impeachment purposes
.(ECF No. 104). Following the pretrial conference, the

2

Plaintiff also filed a motion for leave to file a surreply. (ECF No.
73).

8a
district court granted the motion in limine (ECF Nos.
110, 111).
There were two trials. On February 28, 2019,
following seven days of trial, a jury found that
Defendant retaliated against Plaintiff, and on July 26,
2019, the district court entered judgment in the
amount of $125,000 for Plaintiff. (ECF Nos. 130, 165).
In the punitive damages trial, a jury returned a verdict
in favor of CVS Rx. (ECF Nos. 88, 111, 159).
Following entry of judgment, both CVS Rx and
Plaintiff filed motions for judgment and/or motions for
new trial related to the award of compensatory
damages and the lack of award of punitive damages,
respectively. (ECF Nos. 178, 179). That same day,
Plaintiff filed two other motions: a motion for
reconsideration, or in the alternative, to amend the
judgment with respect to the court’s order partially
granting summary judgment, and a reconsideration
motion, or alternatively to amend the judgment,
regarding the court’s order partially granting
Defendant’s motion to dismiss. (ECF Nos. 180, 181).
The district court denied all motions (ECF No. 205).
Plaintiff initially noted his request for attorney’s
fees in a letter, and later superseded it with an actual
motion and supplemental submissions. The matter has
been fully briefed (ECF Nos. 163, 172, 176,
189,194,198, 231). The matter was referred to me to
author a Report and make recommendations. (ECF No.
183).

9a
II.

MOTION FOR ATTORNEY’S FEES
A. Legal Standard

Title VII of the Civil Rights Act of 1964 authorizes
an award of attorney’s fees in certain circumstances. In
this case:
“[i]n any action or proceeding under this
subchapter the court, in its discretion, may allow
the prevailing party, other than the [Equal
Employment Opportunity] Commission or the
United States, a reasonable attorney’s fee
(including expert fees) as part of the costs, and
the Commission and the United States shall be
liable for costs the same as a private person.”
42 U.S.C. § 2000e-5(k); see also 42 U.S.C. § 1988(b).
Before deciding whether an award of attorney’s fees is
appropriate in a given litigation, then, a court must
determine whether the party seeking fees is a
“prevailing party,” a threshold question for which the
Supreme Court has said it will accord a “generous
formulation.” Hensley v. Eckerhart et al., 461 U.S. 424,
433 (1983). A plaintiff is a prevailing party for the
purpose of an attorney’s fees award if the plaintiff
succeeds “on any significant issue in litigation which
achieves some of the benefit [the party] sought in
bringing suit.” Id. at 433.
Where a Plaintiff is a prevailing party, a court must
determine what fee is reasonable. Hensley, 461 U.S. at
433. To do so, courts engage in a three-step process.
First, a court must calculate the lodestar, i.e., “the
number of reasonable hours expended [multiplied by]

10a
a reasonable rate.” Randolph, 715 Fed. App’x 227, 230
(4th Cir. 2017) (citing McAfee v. Boczar, 738 F.3d 81, 88
(4th Cir. 2013)). To determine what is “reasonable” in
the lodestar calculation, a court is bound to apply the
factors set forth in Johnson v. Georgia Highway
Express Inc., 488 F.2d 714, 717–19 (5th Cir. 1974).
These twelve factors are the following:
(1) the time and labor required; (2) the novelty
and difficulty of the questions; (3) the skill
requisite to perform the legal service properly;
(4) the preclusion of employment by the attorney
due to acceptance of the case; (5) the customary
fee; (6) whether the fee is fixed or contingent;
(7) time limitations imposed by the client or the
circumstances; (8) the amount involved and the
results obtained; (9) the experience, reputation,
and ability of the attorneys; (10) the
“undesirability” of the case; (11) the nature and
length of the professional relationship with the
client; and (12) awards in similar cases.
Id. (“Johnson factors”); McAfee, supra, 738 F.3d at 88.
Second, according to Randolph, a court must
“subtract fees for hours spent on unsuccessful claims
unrelated to successful ones.” 715 Fed. App’x at 230
(citation omitted)(emphasis supplied). In that regard,
if a plaintiff prevails on only some of the claims, “the
number of hours may be adjusted downward.” Rum
Creek Coal Sales, Inc. v. Caperton, 31 F.3d 169, 174
(4th Cir. 1994).
Finally, per Randolph, a court should award “some
percentage of the remaining amount, depending on the

11a
degree of success enjoyed by the plaintiff.” Randolph,
715 Fed. App’x at 230 (citing to McAfee, 738 F.3d at
88).
B. Plaintiff’s Request for Attorney’s Fees
A party seeking an award of attorney’s fees must
establish entitlement to same by documenting the
hours expended and the corresponding hourly rates.
Hensley, 461 U.S. at 437.
In this case, Plaintiff requests fees for 587.3 hours
of attorney work, and 16.6 hours of paralegal work, for
a total of 603.9 hours. (ECF No. 194). Plaintiff’s first
petition and attachments detail 530.8 hours of work
related to: case administration, case development,
pleadings, document production, interrogatories, ADR,
depositions, pre-trial motions practice, attending court
hearings, trial preparation, trial, fee petition
preparation, and about 4.6 hours on post-trial motionrelated issues. (ECF Nos. 172, 231). Plaintiff’s
supplemental petition identifies 56.5 hours related to
post-trial motions, including reconsideration motions,
preparing a reply to the fee petition request, and hours
related to the supplemental request for attorney’s fees.
The additional fees sought related to post-trial motions
are for hours: (a) pertaining to drafting an opposition
to Defendant’s motion for judgment as a matter of
law/for a new trial; (b) for a motion regarding the lack
of punitive damages; (c) related to a motion for
reconsideration, or in the alternative, to amend the
judgment with respect to the court’s order partially
granting summary judgment; and (d) related to a
reconsideration motion, or alternatively to amend the
judgment, regarding the court’s order partially

12a
granting Defendant’s motion to dismiss. (ECF Nos.
194-1, 231-1).
For the work, Plaintiff offers two alternative
theories of “reasonable” fees: a total amount of
$244,904.10, calculated by using the Laffey Matrix3
rate of $417/hour (attorney) and a rate of $100/hour
(paralegal) and multiplying it by the attorney and
paralegal hours incurred; or, a total amount of
$176,190, computed by using the U.S. District Court of
Maryland Local Rules, Appendix B, rate of
$300/hour(attorney) and $100/hour (paralegal) and
multiplying it by the number of hours incurred. (ECF
Nos. 172-4, 231-2). In addition, Plaintiff conducted his
own analysis of the requested rates and hours pursuant
to the Johnson factors, asserting that the requested
amount of attorney’s fees is reasonable. (ECF No. 1721, pp. 14-16).
C. CVS Rx’s Opposition and Objections
A defendant who challenges the award requested
“bears the burden of explaining its objections with
sufficient detail and specific reference to the plaintiff’s
time records to allow the court to evaluate those
challenges without itself pouring over the time records
searching for unnecessary charges.” Nelson v. A&H
Motors, Inc., Civ. No. JKS 12-2288, 2013 WL 38891 at
*3 (D. Md. Jan. 20, 2013)(citation omitted).
In its Opposition to Plaintiff’s Motion for Attorney’s
Fees, CVS Rx contends that the prevailing market for
the hourly attorney fee rate is the District of Maryland,
3

See Section III.B.

13a
and therefore the Appendix B rates apply, not the
Laffey Matrix rates. (ECF No. 176-1, pp. 4-5). Next,
Defendant avers that the attorney’s fee reimbursement
request is unreasonable in three respects: (1) Two out
of four counts in the Amended Complaint were
dismissed in September 2017; (2) with respect to the
remaining two counts, CVS Rx prevailed “with respect
to the majority of its arguments at summary
judgment,” which necessitates a $18,270 reduction in
the fee award sought for summary judgment motions
practice; and (3) Plaintiff should reduce the number of
hours sought for preparing the fee petition from 15.5
hours to 7.75 hours, because Plaintiff’s counsel “has not
identified and remov[ed] time devoted to his
unsuccessful claims.” (ECF No. 176-1, pp. 5-7).
In response to Plaintiff’s supplemental fee petition,
CVS Rx objects to five (5) hours of fees for work
performed related to Plaintiff’s motions for
reconsideration of the district court’s orders dismissing
claims. (ECF No. 198-1).
III.

ANALYSIS AND FINDINGS
A. Plaintiff is a Prevailing Party

As an initial matter, Plaintiff is indisputably a
prevailing party under the meaning of Title VII, 42
U.S.C. §1981. A jury returned a verdict for the Plaintiff
and the court entered judgment in his favor; therefore,
he is a “prevailing party” entitled to attorney’s fees.
The question remains, however, what are reasonable
rates and what are a reasonable number of hours, and
ultimately what is a reasonable fee award.

14a
B. Reasonable Rates
In support of his argument for the award of a Laffey
Matrix4 rate, Plaintiff submitted two affidavits: one
from his counsel and one from a prominent
employment law attorney, Morris E. Fischer, Esq. (See
ECF Nos. 172-2 through 172-7, 194-1, 231-1 through
231-3). In essence, Plaintiff maintains that the Laffey
Matrix rate is reasonable because: (a) this is a civil
rights employment case, and counsel uses this rate in
all of his representative matters of this type;
(b) Plaintiff agreed to have attorney’s fees computed at
this rate; and (c) according to Mr. Fischer, who is
familiar with Mr. Kenney’s skills and with the
Maryland suburban employment law community, use
of the Laffey metric is customary. (ECF No. 172-1, pp.
12-13).
When assessing the reasonableness of a requested
fee reimbursement rate, a court must evaluate whether
the attorney’s rates match those “prevailing in the
community for similar services by lawyers of
reasonably comparable skill, experience and
reputation.” Blum v. Stenson, 465 U.S. 886, 890 n. 11
(1984). In the Fourth Circuit, an analysis of the fee
“customarily charged in the locality for similar legal

4

The Laffey Matrix is a metric used by the U.S. Attorney’s Office
in the District of Columbia to calculate rates for attorneys
practicing in civil cases in courts located in Washington, D.C.
(emphasis supplied). See ECF No. 172-5,p.1, n.1(“This matrix of
hourly rates for attorneys of varying experience levels. . . has been
prepared by the Civil Division of the United States Attorney’s
Office for the District of Columbia(USAO) to evaluate requests for
attorney’s fees in civil cases in District of Columbia courts”).

15a
services” requires a court to consider the “community
in which the court sits [as] the first place [to evaluate]
prevailing market rate.” Rum Creek Coal Sales, Inc. v.
Caperton, supra, 31 F.3d at 174; Thompson v. U.S.
Dep’t of Hous. & Urban Dev., Civ. No. MGJ-95-309,
2002 WL 31777631, at *12 (D. Md. Nov. 21, 2002).
In addition to the attorney’s own affidavit, a fee
applicant must produce “satisfactory specific evidence
of the prevailing market rates in the relevant
community for the type of work for which he seeks an
award.” Plyler v. Evatt, 902 F.2d 273, 277 (4th Cir.
1990)(internal quotation marks omitted). An example
of “satisfactory specific evidence” has been held to be
“affidavits from other local lawyers who are familiar
both with the skills of the fee applicants and more
generally with the type of work in the relevant
community.” Robinson v. Equifax Info. Servs., LLC, 560
F.3d 235, 245 (4th Cir. 2009); see also CoStar Group,
Inc. v. LoopNet, Inc., 106 F.Supp.2d 780, 788
(D.Md.2000) (evidence of the prevailing market rate
“usually takes the form of affidavits from other counsel
attesting to their rates or the prevailing market rate”).
Where there is an absence of sufficient
documentation, that is when a court may rely on its
own knowledge of the prevailing market rate which, in
this district, “is embedded within [Appendix B of the
U.S. District Court of Maryland Local Rules].” Gonzales
v. Caron, Civ. No. CBD-10-2188, 2011 WL 3886979, at
*2 (D. Md. Sept. 2, 2011).5

5

Appendix B (“the Guidelines”), although not binding,
presumptively sets forth ranges of reasonable hourly rates based

16a
Defendant counters that using the Laffey Matrix
would be inappropriate here for three reasons:
(1) Plaintiff was a Maryland resident at the time of this
case and the matter was filed in this Maryland federal
court; (2) the fact that Plaintiff agreed to pay his
counsel the Laffey Matrix rate is irrelevant, and
(3) “The Fourth Circuit has rejected applying [Laffey]
to support fee awards in cases outside of the District of
Columbia.” (ECF No. 176-1, p. 5). Defendant relies
upon Grissom v. The Mills Corp., 549 F.3d 313 (4th Cir.
2008) and Robinson, supra.
I have reviewed all of the pleadings and exhibits in
this case. I am not persuaded by Mr. Kenney’s
argument that Plaintiff’s agreement to Laffey Matrix
rate, by itself, is a factor relevant to this court’s
determination of the reasonableness of his fee. I do not
understand how a business practice that benefits Mr.
Kenney is relevant to the determination that I must
make. Indeed, counsel does not cite to any caselaw to
support this argument.
However, in this case, I do find that Plaintiff has
provided “satisfactory specific evidence” of the
prevailing market rate in this employment case. First,
his own affidavit contains ample evidence of his
significant experience in employment law litigation,
including serving as lead counsel in approximately
eighteen federal district court employment cases in
roughly nine years at bar. (See ECF No. 172-4, pp. 1-4).
Second, reviewing the affidavit of Mr. Fischer, I find

on an attorney’s years of experience. Gonzales, 2011 WL 3886979,
at *2.

17a
that he is a seasoned attorney with noteworthy
credentials and significant experience in the
Washington D.C. area employment law field. (See ECF
172-6, ¶¶ 1-8). In addition, in his affidavit, Mr. Fischer:
(a) says that he is familiar with the skills of the fee
applicant; (b) states that he is familiar with the
employment law-related work done by practitioners in
the relevant community (the Maryland suburbs,
including Silver Spring, Bethesda, and Chevy Chase);
(c) represents that he is familiar with the prevailing
market rates in the relevant community; (d) says that
he is familiar with the Laffey Matrix rates; and
(e) suggests that Mr. Kenney’s rate of $417/hour
coincides with the prevailing market rate of Maryland
suburban attorneys. While his affidavit does not
explicitly state that Mr. Kenney’s rate coincides with
the prevailing market rates of attorneys in suburban
Maryland “of similar skill and for similar work,”
Grissom, 549 F.3d 313, it is the reasonable, logical
inference to be drawn from reading the affidavit. (See,
e.g., ECF 172-6, ¶¶9-13, 15-17, 19).
I find Plyler v. Evatt to be instructive. In Plyler, a
civil rights action related to prison overcrowding, the
plaintiffs provided affidavits related to their counsel’s
rates, experience, and skills, and also affidavits from
South Carolina lawyers familiar both with the
plaintiffs’ counsel’s skills and civil rights litigation in
South Carolina in order to establish the reasonable
market rate. In contrast, the defendants argued that
the relevant evidence of the market rate was found in
an affidavit that they submitted, which identified
multiple cases wherein South Carolina civil rights
attorneys were retained by the state at lower rates

18a
than those sought by Plaintiffs. Despite this conflicting
evidence, the Fourth Circuit found that the district
court did not err in finding sufficient plaintiffs’
tendered evidence of the prevailing market rates. 902
F.2d at 278.
This case is distinguishable from Grissom and
Robinson. In Grissom, plaintiff only submitted
affidavits from his own counsel, not from attorneys
outside of the firm, to try to meet his burden of
establishing the prevailing market rate of attorneys in
Virginia for similar work. The Fourth Circuit held that
this ran afoul of Plyler. 549 F.3d at 323. Similarly, in
Robinson, the Fourth Circuit found that plaintiff failed
to offer specific evidence that his attorney’s fee rate
coincided with the prevailing market rates of other
attorneys in Virginia for similar skills and work. 560
F.3d at 245.
Alternatively, assuming that I should find that the
Guidelines reflect the presumptively reasonable
market knowledge of attorney fee rates in Maryland, I
would still recommend that the district court apply an
hourly billing rate above the Guidelines. The applicable
range under the Guidelines for Mr. Kenney, an
attorney admitted to the bar for approximately 8 years,
is $165-$300 per hour. See Appendix B, 3. I reviewed
the pleadings, docket sheet entries, the transcript for
the first day of trial, and the recording of the pretrial
conference/motions hearing to aid me in assessing the
overall reasonableness of the attorney fee rate under
“lodestar.” I consider the following Johnson factors to
especially support the upward adjustment to
$417.00/hour:

19a
Category #1- (3) The skill requisite to perform the
legal service properly and (9) the experience,
reputation, and ability of the attorney. Johnson
instructs the court to “closely observe the attorney’s
work product, his preparation, and general ability
before the court.” 488 F.2d at 718-720. Here, Mr.
Kenney clearly has significant employment law
litigation experience, as reflected in his affidavit. (See
ECF No. 172-4, pp. 1-4). In addition, here are a few
examples that I found in reviewing the record in this
case related to counsel’s skill: Within approximately
four months of this initially-pro-se-matter being
transferred to this District, counsel entered his
appearance and filed an Amended Complaint that more
fully articulated the Plaintiff’s claims for relief. (See
ECF No. 29). Furthermore, after Defendant filed a
motion to dismiss, Plaintiff’s counsel reviewed the
evidence in the case and Defendant’s arguments and
decided not to challenge dismissal of some claims,
evidencing an exercise in judgment that likely led to
the conservation of judicial resources. (See ECF No.
42). Third, after Defendant filed a motion in limine to
preclude the introduction at trial of some evidence
related to Plaintiff’s termination and certain
reprimands, counsel for Plaintiff demonstrated a keen
understanding of the Federal Rules of Evidence related
to impeachment and relevance, and conceded the
inadmissibility of certain evidence. (See ECF Nos. 104,
110, 111). At least one district court has found an
attorney’s skills to be a heavily-weighted factor in the
lodestar analysis. See Peacock v. Bank of America Corp.
133 F.Supp. 2d 1322, 1327 (M.D. Fla. 2000)(“skill is
evidenced by an attorney’s initial case assessment,
continuing negotiation, and settlement attempts,

20a
persuasiveness, and other fundamental aspects of
organization and efficiency”).
Category #2- (1) the time and labor required; (8) the
amount involved and the results obtained. Throughout
the life of this 2.5- year case, Plaintiff was represented
only by one attorney, while Defendant was frequently
represented by at least two attorneys. (See, e.g., ECF
No. 67). Counsel notes that he litigated against “one of
the largest companies in the nation, represented by the
largest employment law firm in the world.” (Id. at 14).
Continuously representing a Plaintiff by facing off
against two attorneys is no small feat, especially not in
a case involving significant motions practice, several
depositions and substantial document productions, and
the need to prepare for not just one, but two jury trials.
(See ECF No. 231-2, pp. 1-25). The first trial resulted in
a $125,000 verdict for Plaintiff, evidencing the jury’s
belief that Plaintiff met his burden of establishing that
he was retaliated against. (See ECF No. 165).
Category #3- (5) the customary fee, and (11) the
nature and length of the professional relationship with
the client. I have already addressed these issues above
and find that they work with the other factors analyzed
to support an upward adjustment.
In sum I recommend that you award Plaintiff’s
counsel his requested attorney fee rate of $417.00/hour.
In addition, I have reviewed the records submitted
related to paralegal work performed, and I also find
that rate of $100.00 to be reasonable.

21a
C. Reasonable Hours
In support of the fee petition, Plaintiff submitted
time entry records6 of attorney and paralegal hours
billed by category of work and additional documents in
support thereto. (ECF Nos. 172-1 through 172-8, 2311). Defendant raises objections to: (a) the amount of
attorney hours identified in connection with responding
to the summary judgment motion; (b) the amount of
attorney hours sought in preparing the fee petition;
and (c) the amount of attorney hours requested related
to two of Plaintiff’s post-trial motions for
reconsideration. (ECF Nos. 176-1, 198).
1. Motion for Summary Judgment
My review of the corrected time entry record reveals
that Plaintiff identifies 91 hours related to “Motions
Practice,” of which 75.8 hours are dedicated to
summary judgment: 51.2 hours dedicated to opposing
CVS Rx’s summary judgment motion, and 24.6 hours
related to filing a surreply to Defendant’s summary
judgment motion. (ECF No. 231-1, pp11-18, 21-22). I
will use these hours when analyzing the issues.7

6

Upon request to provide an error-free time entry record and
additional information, Mr. Kenney filed a supplemental letter
with exhibits. (See ECF Nos. 229, 231, 231-1). There were no
material changes to the time entry record. I do note, however, that
there appears to be a minor date error related to an entry
categorized as “trial prep” with a date of 2/26/18. (ECF No. 231-1,
p. 18). It makes sense for the date to be “2/26/19.”
7

Defendant says that Plaintiff identified 95 hours, 79.2 of which
were related to “fees incurred in opposing CVS’s Motion for
Summary Judgment.” (ECF No. 176-1, p. 6).

22a
According to Plaintiff, the hours that he seeks are
reasonable because he succeeded on the Title VII,
§1981, and MFEPA retaliation claims, which were not
“distinct in all respects” from his unsuccessful claimsi.e., the claims dismissed at the summary judgment
phase (the race discrimination and retaliation claims
related to his January 2016 termination, and to
warnings issued in November 2014, August 2015 and
October 2015). Specifically, Plaintiff asserts that the
unsuccessful claims and the successful claims were
predicated on the same common core of facts and
involved, e.g., “the same supervisors, the same
witnesses, the same legal theories, much of the same
conduct. . .the same employment. . .the same store, the
same pharmacy. . . .” (ECF No. 172-1, p. 10-12).
Plaintiff continues that the discipline Plaintiff received
in November 2014 and in January 2015 “form[ed] the
very basis for Plaintiff’s April 2016 (sic) retaliatory
Level III discipline claim,” and “Plaintiff’s complaints
regarding the November 2014 and January 2015
discipline and audits constitute pre-April 201[5]
protected activity.” (ECF No. 189, pp. 2-3). Thus, the
time spent “opposing CVS’s motion for summary
judgment was ‘related’ to Plaintiff’s successful claims,”
and the earlier conduct was “necessarily linked to the
successful April 201[5] Level III retaliation claim.”
(Id.).
Defendant argues that some of the time spent
on summary judgment motions practice was
unreasonable. According to the Defendant, the court
should subtract fees related to Plaintiff’s litigation of
unsuccessful discrimination and retaliation claims. In
particular, because two of the four claims raised in the

23a
Amended Complaint were dismissed (sex and national
origin discrimination), and CVS Rx prevailed at the
summary judgment stage on the race discrimination,
termination, and retaliation claims related to the
warnings in November 2014, August 2015 and October
2015, then, before trial, “CVS [had] prevailed on 100%
of Plaintiff’s [race] discrimination claims and 75% of
Plaintiff’s retaliation claims.” Thus, the argument
continues, a 75% reduction is warranted for Plaintiff
opposing Defendant’s summary judgment motion. (ECF
No. 176-1. pp. 6-7).
In Hensley v. Eckerhart, the Supreme Court opined
on factors related to the reasonableness of the
attorney’s fees sought, which the lower court should
consider upon remand. In order to determine whether
a court should adjust upward or downward the amount
of attorney’s fees sought, one important factor to
consider relates to the results obtained. The Supreme
Court opined:
This factor is particularly crucial where a
plaintiff is deemed “prevailing” even though he
succeeded on only some of his claims for relief.
In this situation, two questions must be
addressed. First, did the plaintiff fail to prevail
on claims that were unrelated to the claims on
which he succeeded? Second, did the plaintiff
achieve a level of success that makes the hours
reasonably expended a satisfactory basis for
making a fee award?
461 U.S. at 434-35. In addition, in a scenario where a
plaintiff presents unrelated claims, i.e., claims that are
“distinctly different claims for relief that are

24a
based on different facts and legal theories,” the
attorney hours spent on the unsuccessful claims should
be excluded. Id. at 435(emphasis supplied). The
Supreme Court also recognized that some cases present
a single claim, while others involve more than one
claim. In the latter scenario, if plaintiff’s claims for
relief involve “a common core of facts,” or “are
based on related legal theories:”
Much of counsel’s time will be devoted generally
to the litigation as a whole, making it difficult to
divide the hours expended on a claim-by-claim
basis. Such a lawsuit cannot be viewed as a
series of discrete claims. Instead the district
court should focus on the significance of the
overall relief obtained by the plaintiff in relation
to the hours reasonably expended on the
litigation.
461 U.S. at 435 (emphasis supplied). The Supreme
Court further elaborated on the relevance of the results
achieved to the fee ultimately awarded: if a plaintiff
obtains “excellent results, his attorney should recover
a fully compensatory fee. . .In these circumstances, the
fee award should not be reduced simply because
plaintiff failed to prevail on every contention raised in
the lawsuit.” Id. at 435. Alternatively, if:
a plaintiff has achieved only partial or limited
success, the product of hours reasonably
expended on the litigation as a whole may be an
excessive amount. This will be true even where
the plaintiff’s claims were interrelated,
nonfrivolous, and raised in good faith. . . Again,

25a
the most critical factor is the degree of success
obtained.
461 U.S. at 436.
In sum, a claim is “unrelated” if it is “distinct in all
respects from [successful] claims,” and a claim is
“distinctly different” if it is “based on different facts
and legal theories.” Hensley, 461 U.S. at 434, 440.
Thus: (a) if a plaintiff loses on a claim that is distinct in
all respects from the successful claims, then all of the
“unsuccessful claim hours” should be excluded as
unreasonable; (b) where a plaintiff’s lawsuit has
related claims, and he obtains “substantial relief” from
a jury, e.g., then I do not have to reduce the attorney’s
fees sought, simply because the district court granted
summary judgment on one or more of claims raised by
plaintiff in his Amended Complaint. However, if a
plaintiff only achieves “limited success” then, I should
only award what is reasonable in relation to the results
obtained. Hensley, 461 U.S. at 440. Relatedly, if a
plaintiff receives relief but “it is limited in comparison
to the scope of litigation as a whole, “then I should not
be afraid to reduce the award if I found the hours
expended to be unreasonable. McAfee, 738 F.3d at 92
(quoting Hensley, supra, at 439-40).
I do not find that a deduction under step two of
Randolph is warranted. I do not find that the claims
denied on summary judgment (Count I and parts of
Count IV) are entirely unrelated to the successful
retaliation claim. Although proof of Count I would have
required proof of different legal elements, what was
presented at trial did not appear to involve distinctly
different claims that were based on different facts.

26a
Regarding Count IV, even though the district court
precluded the introduction of evidence after April 2015,
what remained was neither unrelated nor distinctly
different. The evidence involved the same supervisor,
same facts, and much of the same legal theory. (See
ECF Nos. 111, 125, 211). I find that the evidence
included the November 2014 warning and facts related
to Plaintiff’s beliefs that he was discriminated against
based on race. (Id.) The evidence involved a common
core of facts, and the jury must have found it relevant
to its determination that Plaintiff engaged in protected
activity before April 2015.
This case is distinguishable from Musa v. Soar
Corp., 2015 U.S. Dist. LEXIS 17398, *15-16 (E.D. Pa.
2015). In Musa, the plaintiff’s amended complaint
alleged race and gender discrimination (state and
federal claims), and retaliation and unpaid overtime
wages under the Fair Labor Standards Act and state
statutes. At the summary judgment phase, the court
granted dismissal of the race, gender, and retaliation
claims, leaving only unpaid overtime wages claims for
trial. The district court denied an attorney’s fees
request predicated on the time billed for the entire
case, finding that where the trial focused only on
approximately 350 hours of unpaid overtime wages the
discrimination and retaliation claims were “distinct
claims premised upon different facts.” Because that
plaintiff failed to prevail on claims that were unrelated
to the claims upon which he success, a reduction was
appropriate. 2015 U.S. Dist. LEXIS 17398, *12-13. As
stated above, this is not the case here.

27a
However, when I assess the overall reasonableness
of the attorney hours billed under the lodestar, I
believe that a reduction in hours is appropriate based
on Plaintiff’s motion for leave to file a surreply.
Plaintiff’s time entry records reflect 24.6 hours
dedicated to drafting a surreply-related motion. (ECF
No. 231-1, p. 14). First, the district court held that
“courts do not permit a party to file a surreply unless it
otherwise would not have an opportunity to contest a
matter that the non-moving party had failed to present
prior to its reply.” (See ECF No. 82, p. 11 n. 7). Second,
the district court declined to exercise its discretion to
grant surreply leave, finding, that “none of the
arguments in the reply could have caught [Plaintiff] by
surprise,” and that CVS Rx did not rely in its reply on
discovery that it produced at a late date to Plaintiff.
(ECF No. 82, pp. 11-12, n. 7).
Accordingly, I do not find these surreply hours to be
reasonable, and I recommend a deduction of $10,258.20
($417/hour x 24.6 hours).
Finally, as set forth more fully below in Section
III.D, I find that Hensley and McAfee support a
reduction based on the degree of success.
2. Reduction Based on Documentation First
Submitted
A court can reduce hours awarded if the
documentation submitted is “vague or incomplete.”
CoStar Group, Inc. v. LoopNet, Inc., 106 F.Supp.2d at
788. Because the first time entry record contained a
fair number of errors and documentation was lacking

28a
related to the paralegal, I recommend a minor
reduction of $1,000.
In addition, I do not find that a reduction is
warranted for the 16.6 paralegal hours expended. The
number of hours requested are reasonable, and I
recommend award of the full amount.
3. Post-trial Motions for Reconsideration
My review of the time entry records reflect that
Plaintiff seeks 61.1 hours for work related to the posttrial motions, including, as relevant here, 5 hours of
work for reconsideration motions related to the district
court’s orders dismissing claims and partially granting
summary judgment. (ECF Nos. 194, 231-1). CVS Rx
objects to fees for those 5 hours. Specifically, Defendant
asserts that these motions were untimely and lack
merit. (ECF No. 198-1, p.2). On November 15, 2019, the
district court denied both motions, finding that they
were untimely and failed to satisfy Fed. R. Civ. P. 59(e)
and 60(b). (ECF No. 205). Under these circumstances,
I find that the hours were unreasonable and
recommend a deduction of $2,085 ($417/hour x 5
hours).
4. Fee Petition Preparation
Plaintiff seeks attorney’s fees for the 18 hours that
he spent preparing the initial fee petition and the reply
to Plaintiff’s opposition thereto. (ECF Nos. 194, 231-1).
Defendant, citing to Musa, maintains that a reduction
in fee petition hours is appropriate because Plaintiff
“[did] not identif[y] and remove time devoted to his
unsuccessful claims.” (ECF No. 176-1, p. 7).

29a
I have reviewed the records related to the fee
petition preparation. Plaintiff has not identified which
hours were dedicated to successful claims vs.
unsuccessful claims. As a practical matter, I find that
because opposing the summary judgment motion
required analysis of the common core of facts and thenrelated legal theories, it would be unnecessary to parse
out how much of counsel’s time was dedicated to
successful or unsuccessful claim. See Hensley, 461 U.S.
at 435. In addition, I have found Musa inapplicable
here, and I do not recommend a reduction in hours for
the fee petition.
D. Degree of Success
As I stated above in Section III C., I must consider
the degree of success obtained. The Fourth Circuit in
Randolph v. Powercomm Construction, Inc. has made
clear that evaluation of the extent of the “success”
relative to the fee award occurs after I consider
whether to deduct fees associated with time spent on
“unrelated, unsuccessful claims.” See 715 Fed.Appx.
227, 231(“the relief obtained was more appropriately
considered after deducting the time spent by Plaintiffs’
counsel pursuing unrelated, unsuccessful claims”).
When assessing the degree of success of the
plaintiff, a court must “consider the amount of damages
sought to the amount awarded. If a. . .plaintiff achieves
only part of the success [he] sought, the lodestar
amount may be excessive.” McAfee, 738 F.3d at 92-93
(internal quotation marks and citation omitted).
In this case, Plaintiff’s Amended Complaint
contained four counts, two of which were dismissed

30a
(ECF No. 46). After discovery, Defendant moved for
summary judgment, which was granted on Count I,
and granted in part on Count IV as to several of
Plaintiff’s retaliation claims. (ECF Nos. 82-83). Thus,
what remained for trial was only one of Plaintiff’s
many theories of retaliation, and the presentation of
facts related thereto were even further limited at the
pretrial conference. (ECF No. 110, 111). Even though
the jury did award $125,000, Plaintiff sought
$1,000,000 in damages. In addition, it is important to
note that the jury did not award Plaintiff the punitive
damages that he sought. I think that it is important for
me to consider that Plaintiff was not successful on a
majority of his claims, but I do not think that it
“warrant[s] reducing his attorney’s fees based on a
percentage of his successful claims as compared with
the total number of claims he originally sought.”
Sergeant v. Acol, et. al, Civ. No. PWG 15-2233, 2018
WL 276431, *9 (D. Md. Jan. 3, 2018); see also Hensley,
461 U.S. at 435 n.11 (“we agree with the District
Court’s rejection of a ‘mathematical approach
comparing the total number of issues in the case with
those actually prevailed upon.’”). While counsel is not
entitled to a “windfall,” it is important for the fee
award in this case to be adequate “to attract competent
counsel.” Butler v. Directsat USA, LLC., Civ No. DKC
10-2747, 2016 WL 1077158, *6 (D. Md. Mar. 18, 2016).
It is also important to consider the Johnson factors, as
I did above in Section III.C.1., in finding the
appropriate fee award. Accordingly, because of
Plaintiff’s lack of litigation success, relatively speaking,
the requested fee will be reduced by 30%.

31a
IV.

COSTS

Plaintiffs submitted a separate pleading-- an
amended bill of costs-- seeking reimbursement for
$6,773.31 in taxable costs. (ECF No. 173). Plaintiff
refers to the costs in his fee petition motion, and also
appends a few supporting exhibits thereto. (ECF Nos.
172-1, pp 16-17; 172-7, 172-8). In the fee petition
motion, Plaintiff references $6,773.31 in taxable costs,
and $2,431.43 in non-taxable costs. (Id.). In its
opposition to the fee petition motion, CVS Rx did not
address the bill of costs issue, opting instead to file a
separate response. (ECF No. 175). To the extent that
the district court wants me to consider the propriety of
these costs,8 I remain available to analyze them.
V.

CONCLUSION

In sum, I find that the requested hourly attorney
and paralegal rates ($417/hour and $100/hour) are
reasonable. I further find that the majority of the
requested number of hours are reasonable, with the
adjustments set forth above. I have multiplied the
number of reasonable hours expended by the
reasonable rates for the attorney as instructed by
Randolph, and followed the other Randolph
requirements. I further find that other reductions were
warranted, including a reduction based on the extent of
success is warranted. I ultimately recommend a total
fee award of $162,092.63 ($244,904 - 13,343.20 x
30%).

8

See ECF No. 183.

32a
Dated: January 14, 2020
/s/
The Honorable Gina L. Simms
United States Magistrate Judge

33a

APPENDIX C
UNITED STATES DISTRICT COURT
DISTRICT OF MARYLAND
[Filed: November 5, 2019]
CHAMBERS OF
PAUL W. GRIMM
UNITED STATES DISTRICT JUDGE
6500 CHERRYWOOD LANE
GREENBELT, MARYLAND 20770
(301) 344-0670
(301) 344-3910 FAX
November 5, 2019
RE:

Wantou Siantou v. CVS Rx Services, Inc.
PWG-17-0543
LETTER ORDER

Dear Counsel:
This letter order addresses the following post-trial
motions:1

1

One additional motion was filed post-trial—Plaintiff’s Renewed
Motion for Attorney’s Fees, ECF No. 172—which has been referred
to Magistrate Judge Simms for Report and Recommendations. See
Order, ECF No. 183. Therefore, the motion for attorney’s fees is
not addressed in this Letter Order.

34a
• Defendant’s Renewed Motion for Judgment
as a Matter of Law Pursuant to Fed. R. Civ.
P. 50(b) And/Or Motion for New Trial
Pursuant to Fed. R. Civ. P. 59(a), ECF No.
178 (“Def.’s Mot.”)
• Plaintiff’s Post Trial Motion for Judgment as
a Matter of Law as to Punitive Damages, or
in the Alternative, a New Punitive Damages
Trial, ECF No. 179 (“Pl.’s Mot.”)
• Plaintiff’s Motion for Reconsideration, or in
the Alternative, to Amend the Judgment
with Respect to the Court’s Order Partially
Granting Summary Judgment, ECF No. 180
(“Reconsider SJ Mot.”)
• Plaintiff’s Motion for Reconsideration, or in
the Alternative, to Amend the Judgment
with Respect to the Court’s Order Granting
Defendant’s Partial Motion to Dismiss, ECF
No. 181 (“Reconsider Dismiss Mot.”)
Having reviewed the filings,2 I find that a hearing
is unnecessary in this case. See Loc. R. 105.6 (D. Md.
2018). For the reasons that follow, these four pending
motions shall be DENIED.
Brief Background
Plaintiff, who had been employed as the head
pharmacist at a CVS drug store, brought suit against
CVS in December 2016, alleging that the company had
2

All motions have been fully briefed. See ECF Nos. 178, 179, 180,
181, 190, 191, 192, 195, 201, 202, 203, and 204.

35a
taken actions that constituted unlawful discrimination
under Title VII of the Civil Rights Act of 1964 (“Title
VII”), the Maryland Fair Employment Practices Act
(“MFEPA”), and 42 U.S.C. § 1981, as well as retaliation
under various federal and state laws. See Am. Compl.,
ECF No. 29. CVS filed an unopposed motion to dismiss
in part, which I granted, resulting in the dismissal of a
majority of Plaintiff’s claims. Am. Ltr. Order, ECF No.
46. The case proceeded on the following claims only:
racial discrimination under 42 U.S.C. § 1981 (Count I)
and retaliation under Title VII, 42 U.S.C. § 1981 and
the MFEPA (Count IV). Id. After a period of discovery,
CVS moved for summary judgment on the remaining
claims. Mot., ECF No. 67. I granted summary judgment
in part in CVS’s favor, but I concluded that one of
Plaintiff’s retaliation claims could proceed to trial.
Mem. Op. & Order, ECF Nos. 82, 83.
The trial proceeded in two phases: first, after a
seven-day jury trial on liability, a jury returned a
verdict in favor of Plaintiff on his retaliation claim,
awarding him $125,000 in compensatory damages;
second, a three-day jury trial was held to determine if
Plaintiff was entitled to punitive damages, which
resulted in the jury returning a verdict in favor of CVS.
See Judgment, ECF No. 165. Plaintiff filed an appeal
with the United States Court of Appeals for the Fourth
Circuit. See Appeal Not., ECF No. 182.3 Both parties
now seek to overturn some aspect of the court’s or the
juries’ decisions and judgments.

3

The appeal will not be treated as filed until the disposition of
these pending motions. See Ltr., ECF No. 187.

36a
Discussion
Defendant renewed its motion made at trial for
judgment as a matter of law under Federal Rule of
Civil Procedure 50(b), and alternately for a new trial
under Rule 59(a). Def.’s Mot. Plaintiff also moved for
judgment as a matter of law as to punitive damages
under Rule 50(b), and alternately for a new punitivedamages trial under Rule 59(a). Pl.’s Mot.
Rule 50(b) provides that a party may file a renewed
motion for judgment as a matter of law within twentyeight days after entry of judgment, and a Court may:
(1) allow judgment on the verdict, if the jury
returned a verdict;
(2) order a new trial; or
(3) direct the entry of judgment as a matter of law.
Fed. R. Civ. P. 50(b). A party may also challenge a jury
verdict under Rule 59, but it is an “extraordinary
remedy which should be used sparingly.” Pacific Ins.
Co. v. American Nat. Fire Ins. Co., 148 F.3d 396, 403
(4th Cir. 1998). Fed. R. Civ. P. 59(a)(1)(A) provides that
“[t]he court may, on motion, grant a new trial on all or
some of the issues—and to any party— . . . for any
reason for which a new trial has heretofore been
granted in an action at law in federal court.” Whether
to grant a new trial “rests within the sound discretion
of the trial court but such discretion must not be
arbitrarily exercised.” City of Richmond v. Atl. Co., 273
F.2d 902, 916 (4th Cir. 1960); see Atkinson
Warehousing & Distrb., Inc. v. Ecolab, Inc., 115 F.

37a
Supp. 2d 544, 546 (D. Md. 2000), aff’d, 15 Fed. App’x
160 (4th Cir. Aug. 9, 2001).
First, a Rule 50(b) motion is only a renewal of a
preverdict motion,4 and Plaintiff did not make a
preverdict motion after the close of evidence in the
punitive damages trial. Therefore, I will consider
Plaintiff’s motion only under Rule 59. Defendant made
timely motions for judgment as a matter of law and
now renews its motion.
Defendant asserts that the jury’s liability and
compensatory damages verdict must be set aside
because the Plaintiff failed to present any evidence to
establish that CVS’s reasons for issuing the Level III
final warning were a pretext for retaliation. Def.’s Mot.
1-2. There was, however, testimony presented that
would allow a reasonable jury to conclude that CVS’s
disciplinary actions were pretextual. For example, the
jury reasonably could have believed the Plaintiff’s
evidence that he had permission (or at least
acquiescence) from his supervisor for his actions and
that the reason the disciplinary incident was later
revisited and the disciplinary action escalated was
because of Plaintiff’s well-documented discrimination

4

See Advisory Committee’s Notes to the 2006 Amendment to Rule
50(b) (“Because the Rule 50(b) motion is only a renewal of the
preverdict motion, it can be granted only on grounds advanced in
the preverdict motion.”); see also Miller v. Premier Corp., 608 F.2d
973, 980 n.3 (4th Cir. 1979) (“The requirement of a proper directed
verdict motion as foundation for a motion for judgment n. o. v.
under Fed. R. Civ. P. 50(b) is not a mere technicality; it serves
vitally important interests in the fair conduct of litigation.”
(citation omitted)).

38a
complaints. As the jury instruction stated, “Mr.
Wantou must prove, by a preponderance of the
evidence that retaliation was the actual reason for the
adverse action. He may establish this by showing that
CVS’s stated reasons are not credible. . . . [I]f you find
that CVS’s explanation is not credible, you are
permitted – but not required – to treat this as
circumstantial evidence that CVS intentionally
retaliated against Mr. Wantou.” Final Jury Instruction
No. 28, ECF No. 127. Under Rule 50, the court does not
reweigh the evidence or consider the credibility of the
witnesses but must view “all the evidence in the light
most favorable to the prevailing party and draw all
reasonable inferences in [the prevailing party’s] favor.”
Konkel v. Bob Evans Farms, Inc., 165 F.3d 275, 279
(4th Cir. 1999). It is the jury’s role to determine
witness credibility and weigh the evidence, and I find
no substantial reason to not respect the jury’s verdict
in this case. Therefore, I shall DENY Defendant’s
renewed motion for judgment as a matter of law.
Similarly, I shall also DENY Defendant’s request
for a new trial on liability. A “review of a motion for
new trial under Fed. R. Civ. P. 59(a) is governed by a
different standard,” such that I am “permitted to weigh
the evidence and consider the credibility of witnesses.”
Cline v. Wal-Mart Stores, Inc., 144 F.3d 294, 301 (4th
Cir. 1998). However, the reasons for granting a new
trial include if “(1) the verdict is against the clear
weight of the evidence, or (2) is based upon evidence
which is false, or (3) will result in a miscarriage of
justice, even though there may be substantial evidence
which would prevent the direction of a verdict.” Id.
(quoting Atlas Food Sys. & Servs., Inc. v. Crane Nat’l

39a
Vendors, Inc., 99 F.3d 587, 594 (4th Cir. 1996)). But,
having presided over both trials, heard the evidence,
and observed the witnesses, I have no reason to find
that there was false evidence presented, or that there
has been a miscarriage of justice in this case, and I
conclude that the jury’s verdict is not against the clear
weight of evidence. Therefore, I shall not exercise my
discretion to grant the extraordinary remedy of a new
trial on liability.
Nor shall I grant Plaintiff’s motion for a new trial
on punitive damages. Plaintiff argues that he was
prejudiced by the bifurcation of the trial into two
phases and that he was further prejudiced by the delay
that required the second phase to be heard by a
different jury. Pl.’s Mot. Mem. 1-2, ECF No. 179-1. I
granted the Defendant’s motion to bifurcate the trial
into two phases because it would promote judicial
economy and avoid the potential for prejudice in the
liability phase by delaying the presentation of evidence
related to punitive damages. See Fed. R. Civ. P. 42(b)
(granting courts broad discretion to bifurcate issues for
reasons of “convenience, to avoid prejudice, or to
expedite and economize.”). Plaintiff has not shown that
the verdict in the punitive damages trial was against
the clear weight of the evidence or based on false
evidence. Plaintiff’s argument that he was prejudiced
by having the punitive damages trial heard by a
separate jury is unavailing—he consented to the jury
being released after the first trial without objection
because he was not available to continue the trial the
following week, when the Court offered the parties the
opportunity to continue the trial on punitive damages
before the same jury that heard the evidence on

40a
liability and compensatory damages. If it is assumed
for the sake of argument that the Plaintiff suffered
some prejudice in this regard, it is because of his own
conduct. Moreover, if I were to grant a new trial on
punitive damages alone (as Plaintiff requests) it would
still be heard by a different jury so even if there were
prejudice, it would not be cured. Plaintiff has not
requested that the verdict in the first trial be set aside
so that he can have one trial on both liability and
punitive damages. Plaintiff’s Seventh Amendment
right to a jury trial was not infringed by the bifurcation
of the trial into two phases, and as stated, Plaintiff
agreed to have the second phase heard by a different
jury at a later time. Therefore, I find that there is no
basis to exercise my discretion to grant Plaintiff a new
trial on punitive damages.
Plaintiff also asks that I reconsider my earlier
decisions on dismissal and summary judgment.
Reconsider SJ Mot., Reconsider Dismiss Mot. And
Plaintiff requests that I reverse my prior decision
denying his motion for leave to file a sur-reply brief on
the motion for summary judgment. Reconsider SJ Mot.
Mem. 4, ECF No. 180-1. Under Fed. R. Civ. P. 54(b),
“any order or other decision, however designated, that
adjudicates fewer than all the claims or the rights and
liabilities of fewer than all the parties . . . may be
revised at any time before the entry of a judgment
adjudicating all the claims and all the parties’ rights
and liabilities.” A motion for reconsideration must be
filed no later than fourteen days after entry of the
order. Local Rule 105.10 (D. Md. 2018). I issued my
decision on the motion for partial dismissal, which
Plaintiff did not challenge, on September 19, 2017. See

41a
Pl.’s Resp., ECF No. 42; Ltr. Order, ECF No. 43. I
issued my summary judgment decision on December 7,
2018. See Mem. Op. & Order, ECF Nos. 82, 83.
Further, final judgment was entered in this case on
July 26, 2019. Judgment Order, ECF No. 165.
Therefore, Plaintiff’s motions to reconsider under Fed.
R. Civ. P. 54(b), filed on August 23, 2019, are untimely.
Additionally, Plaintiff’s arguments fail to satisfy the
standards under Rules 59(e) and 60(b), which are
applicable to motions for reconsideration of a final
judgment and provide guidance to reconsideration of
interlocutory orders. See Carrero v. Farrelly, 310 F.
Supp. 3d 581, 583-84 (D. Md. 2018). 5
Conclusion
For the reasons stated above, the following motions
are DENIED:
• Defendant’s Renewed Motion for Judgment
as a Matter of Law Pursuant to Fed. R. Civ.
P. 50(b) And/Or Motion for New Trial
Pursuant to Fed. R. Civ. P. 59(a), ECF No.
178;

5

“Under Rule 59(e), a motion to amend a final judgment may be
granted only (1) to accommodate an intervening change in
controlling law; (2) to account for new evidence not available at
trial; or (3) to correct a clear error of law or prevent manifest
injustice. And under Rule 60(b), a court may grant relief from a
final judgment or order for the following reasons: (1) mistake,
inadvertence, surprise, or excusable neglect; (2) newly discovered
evidence; (3) fraud or misconduct by the opposing party;
(4) voidness; (5) satisfaction; or (6) any other reason that justifies
relief.” Id. (citations omitted).

42a
• Plaintiff’s Post Trial Motion for Judgment as
a Matter of Law as to Punitive Damages, or
in the Alternative, a New Punitive Damages
Trial, ECF No. 179;
• Plaintiff’s Motion for Reconsideration, or in
the Alternative, to Amend the Judgment
with Respect to the Court’s Order Partially
Granting Summary Judgment, ECF No. 180;
• Plaintiff’s Motion for Reconsideration, or in
the Alternative, to Amend the Judgment
with Respect to the Court’s Order Granting
Defendant’s Partial Motion to Dismiss, ECF
No. 181.
Although informal, this is an Order of the Court and
shall be docketed as such.
Sincerely,
/S/
Paul W. Grimm
United States District Judge

43a

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
Southern Division
Case No.: PWG-17-543
[Filed: July 26, 2019]
_______________________________________
STEPHANE J. WANTOU SIANTOU, )
)
Plaintiff,
)
)
v.
)
)
CVS RX SERVICES, INC.,
)
)
Defendant.
)
_______________________________________)
ORDER OF JUDGMENT
In this case, trial on the issue of punitive damages
was bifurcated from trial on the underlying claims and
compensatory damages. On February 28, 2019, a jury
returned a verdict in favor of the Plaintiff Stephane J.
Wantou Siantou against Defendant CVS Rx Services,
Inc. on the issue of whether Defendant subjected
Plaintiff to retaliation in violation of Title VII of the
Civil Rights Act of 1964, 42 U.S.C. § 1981, and the
Maryland Fair Employment Practices Act. On July 11,
2019, a jury returned a verdict in favor of Defendant

44a
CVS Rx Service Inc. on the issue of whether Plaintiff
was entitled to punitive damages.
These verdicts having been returned, it this day
ORDERED,
1. Judgment is entered in favor of Plaintiff, against
Defendant, in the amount of $125,000.00 (One
Hundred and Twenty-Five Thousand Dollars);
2. Judgment is entered in favor of Defendant on
the issue of punitive damages.
3. Judgment is entered in favor of Plaintiff, against
Defendant, for costs in accordance with Fed. R.
Civ. P. 54(d)(1); and
4. Any and all prior rulings made by the Court
disposing of any claims against any parties are
incorporated by reference herein, and this Order
shall be deemed to be a final judgment within
the meaning of Fed. R. Civ. P. 58.

/s/
7/26/19
Paul W. Grimm
United States District Judge

45a

APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
Southern Division
Case No.: 8:17-cv-00543-PWG
[Filed: December 7, 2018]
_______________________________________
STEPHANE J. WANTOU SIANTOU, )
)
Plaintiff,
)
)
v.
)
)
CVS RX SERVICES, INC.
)
)
Defendant.
)
_______________________________________)
MEMORANDUM OPINION
Plaintiff Stephane Wantou Siantou was the head
pharmacist at a CVS drug store in Maryland. While
there, he filed a multitude of complaints against his
employer, alleging the company had been
discriminating against him because of his race,
nationality, and gender. His rocky tenure was marked
by a number of formal reprimands and culminated in
his termination in January 2016.
In this suit, Mr. Wantou Siantou alleges that
several of the reprimands and his eventual termination

46a
constituted unlawful racial discrimination under 42
U.S.C. § 1981 as well as retaliation under various
federal and state laws. I grant summary judgment for
the defendant, CVS Rx Services Inc. (“CVS”), on the
§ 1981 discrimination claim, as Mr. Wantou Siantou
cannot show that CVS treated him differently from
employees outside of the protected class or that his
termination was suggestive of racial animus. I also
grant partial summary judgment for CVS on the
retaliation claim, concluding Mr. Wantou Siantou
cannot make the requisite showing that certain
reprimands or the termination were retaliatory. He
may proceed, though, on his claim that the company
retaliated against him when, in April 2015, it
reprimanded him a second time for an alleged
unexcused absence from the pharmacy three months
earlier.
FACTUAL BACKGROUND
The controversy in this case unspooled between July
2014 and January 2016, while Mr. Wantou Siantou was
employed as the head pharmacist (or “pharmacist-incharge”) at a CVS drug store in Oxon Hill, Maryland.
See Nguyen Decl. ¶¶ 5-6, Ex. 2, ECF No. 72-3. The
store, which was located in a low-income neighborhood,
had an unenviable record of performance issues,
ranking last among all CVS stores in the country in a
companywide assessment of “workflow.” Holmes Dep.
111:11-18, Ex. 1(C), ECF No. 72-2. The workforce, like
the clientele it served, was diverse. According to Mr.
Wantou Siantou, who is black and hails from the
Central African nation of Cameroon, see Wantou
Siantou Decl. ¶ 1, all of the pharmacists on staff during

47a
the decade preceding his employment were members of
minority groups and, in fact, were “disproportionately
African men” like himself. Addendum to
Discrimination Compl. 2, Ex. 16, ECF No. 72-17. Mr.
Wantou Siantou would later assert: “It is very obvious
to me that I would not have been assigned as pharmacy
manager in store 1469 had I been a White man . . . .”
Id.
Mr. Wantou Siantou’s tenure was, in many respects,
a turbulent one, with friction developing between
himself and management only a few months after his
arrival and persisting until his termination. During
that time, Mr. Wantou Siantou reached out to both the
U.S. Equal Employment Opportunity Commission
(“EEOC”) and, on at least a dozen occasions, to CVS
officials to complain about the way his supervisor and
other higher-ups had treated him. See EEOC Charge,
Ex. 34, ECF No. 72-35; Ethics Line Reports, Ex. 20,
ECF No. 72-21. This lawsuit alleges that treatment
amounted to unlawful discrimination and retaliation.
Reprimand for Showing Up Late to Work
Tensions between Mr. Wantou Siantou and
management first flared up on the morning of
November 18, 2014, when he showed up 25 minutes
late for his shift. See November 18, 2014 Counseling
Report, Ex. 3A, ECF No. 72-4. His late arrival delayed
the opening of the pharmacy that morning, forcing four
customers to wait for service. Id. Mr. Wantou Siantou’s
supervisor, Tiana Holmes, issued a “counseling” report

48a
containing a “Level II” reprimand.1 Id. The report
explained that “[f]urther attendance/tardiness issues
will result in further disciplinary action to include
termination of employment.” Id. The company soon
afterward withdrew the formal reprimand, issuing a
“verbal warning” instead. See Nguyen Note, Ex. 2(F),
ECF No. 72-3.
It was just after this incident (but before the
withdrawal of the Level II reprimand) that Mr. Wantou
Siantou sent the first of what would be numerous
complaints to management about the way he was being
treated at the store. In a November 27, 2014 email, he
accused Ms. Holmes of failing to recognize the
improvements he had made to the pharmacy’s
operations over the previous four months and
complained her decision to reprimand him for a single
instance of tardiness “was at best unfair, and at worst
discriminatory.” November 27, 2014 Email, Ex. 3(B),
ECF No. 72-4.
Reprimands for Leaving the Store
Tensions escalated in late January 2015, while Mr.
Wantou Siantou was sick with the flu. After calling in
sick on January 23, he returned to work the following
day but was overcome by a variety of symptoms,

1

The company’s employee disciplinary policies allow supervisors
to report a “shortfall” in an employee’s conduct or job performance.
See, e.g., November 18, 2014 Counseling Report. The reports,
which become a part of an employee’s personnel record, assign
each shortfall a tier or “consequence level.” Id. There are four
levels, with Level I reserved for the least serious shortfalls and
Level IV warranting termination. See Holmes Dep. 105:5-15.

49a
including nausea and the chills. See Wantou Siantou
Decl. ¶ 26. He texted and called Ms. Holmes and the
pharmacy scheduler to say that he did not feel well
enough to complete his shift and to ask if anyone was
available to fill in for him.2 Id.; see January 24, 2015
Text Messages, Ex. 12, ECF No. 72-13. Ms. Holmes did
some “checking around” but was unable to find a
replacement. Wantou Siantou Dep. 194:19-195:7. Mr.
Wantou Siantou “begged” her for authorization to shut
down the pharmacy, Wantou Siantou Decl. ¶ 27, but
she refused, advising him instead to “[s]it in the back
if you must and tell all new scripts they will be ready
tomorrow,” Wantou Siantou Dep. 195:1-3. Feeling too
cold to stay inside the store, Mr. Wantou Siantou spent
a portion of his remaining shift going back and forth
between the store and his car, which was parked in the
lot outside. See id. at 182:7-13, 191:3-10. All told, he
estimates he spent a little more than two hours in his
car.3 See id. at 191:6-7. Ms. Holmes promptly wrote up
the episode in a counseling report, issuing a Level I
reprimand. See January 26, 2015 Counseling Report,
Ex. 9, ECF No. 72-10.

2

Maryland regulations require pharmacies to “ensure that the
prescription area . . . [p]ermits reasonable communication between
the pharmacist and the public when the pharmacy is open.” Md.
Code Regs. 10.32.05.02.A(1)(b). CVS security policies provide that
a registered pharmacist “must be present at all times.” Pharmacy
Security Policy, Ex. 2(G), ECF No. 72-3.
3

An investigator’s notes of his interview with Mr. Wantou Siantou
on March 11, 2015 states he “admitted leaving the store
unattended while he was in his car on 1/24/15 for 4 hours.” Gerwig
March 11 Email, Gerwig Dep. Ex. 8, Ex. 1(F), ECF No. 72-2.

50a
Mr. Wantou Siantou complained about the writeup
a few days later in an email to CVS Human Resources
Representative Jane Nguyen and Ms. Holmes,
characterizing the reprimand as “extremely harsh.”
February 2, 2015 Email 2, Ex. 2(H), ECF No. 72-3. The
email alleged that requiring him to remain at work
while he was severely ill constituted “a form of
discrimination under the Family and Medical Leave
Act and the American[s] with Disabilities Act.” Id. Ms.
Nguyen called Mr. Wantou Siantou later that day to
set up a meeting to discuss his allegations. Nguyen
Dep. 53:17-20. They planned to meet on February 6,
2015, but when Ms. Nguyen arrived for the meeting
Mr. Wantou Siantou “decided he didn’t want to talk
about his concerns.” Id. at 54:4-16. They rescheduled
the meeting for February 23, 2015. Nguyen Timeline,
Ex. 2(I), ECF No. 72-3.
Mr. Wantou Siantou emailed Ms. Nguyen on the
morning of the rescheduled meeting, writing: “Once
again I feel discriminated against on the basis of
gender, race, and national origin.” February 23, 2015
Email, Ex. 37, ECF No. 72-38. The email complained
that he had been required to work “every single
Monday,” while his partner pharmacist, Brenda Taylor,
“gets to have every other Monday off.” Id. “I think this
is very discriminatory,” he wrote. Id. Taylor is an
African American woman. See Wantou Siantou Dep.
231:16-22. The meeting proceeded as planned that
afternoon, but Mr. Wantou Siantou “refused to speak
about the e-mails he sent in regards to feeling
discriminated against.” Nguyen Timeline 1; see Nguyen
February 23, 2015 Notes, Ex. 2(L), ECF No. 72-3. He
later explained in an email that he felt his “voice was

51a
not heard” at the meeting and that Ms. Nguyen
appeared to be acting as an “advocate” for Ms. Holmes.
February 25, 2015 Email, Ex. 2(M), ECF No. 72-3.
On March 1, 2015, Mr. Wantou Siantou sent Ms.
Nguyen, Ms. Holmes, and the CVS district manager an
email with the subject line, “Formal Complaint of
Discrimination Based on Gender, Race, and National
Origin.” March 1, 2015 Complaint 1, Ex. 10, ECF No.
72-11. There, he wrote: “I feel that there has been very
disparate, egregious treatment by my supervisor
between me and my staff pharmacist,” Ms. Taylor. Id.
The email alleged that Ms. Taylor, in contrast with
himself, had not been reprimanded when she was late
to work, enjoyed a preferable work schedule, and had
not been held accountable for the store’s poor
performance. See id. It concluded: “I fear retaliation or
more adverse actions directed towards me following the
writing of this letter. But I feel that the writing of the
letter is necessary to achieve a fair, discrimination-free
environment and to improve my store.” Id. at 2.
Around this same time,4 Ms. Holmes – who was still
in her first year as a CVS supervisor – began to take a
“closer look” at CVS’s policies requiring the presence of
a registered pharmacist during operating hours.
Holmes Dep. 211:5-18; see Nguyen Dep. 75:11-15. She

4

Ms. Holmes was unclear in her deposition about exactly when she
started reviewing the policies. At one point, she said she “probably”
started reviewing them toward the end of February 2015, around
the time of the February 23, 2015 meeting with Mr. Wantou
Siantou and human resources personnel. See Holmes Dep. 211:1218. At another point, she said her review probably began in March.
See id. at 208:14-21.

52a
consulted another CVS supervisor who had similarly
reprimanded a pharmacist who had left her store
unattended for 15 minutes to buy a coffee at a nearby
7 Eleven. See id. at 212:13-214:10; Forestville Store
Counseling Report, Ex. 2(U), ECF No. 72-3. The
pharmacist in that case received a Level III reprimand,
a more serious disciplinary action than the one Ms.
Holmes had issued to Mr. Wantou Siantou. See
Forestville Store Counseling Report.
During this same period,5 either Ms. Holmes or
another CVS higher-up asked the company’s regional
loss prevention officer, James Gerwig Jr., to investigate
Mr. Wantou Siantou’s conduct during the January 24,
2015 incident. See Holmes Dep. 219:6-16; Gerwig Dep.
92:11-93:12, Ex. 1(F), ECF No. 72-2. Mr. Gerwig
interviewed Mr. Wantou Siantou and reviewed the
store video surveillance footage. See Gerwig Dep. 100:810. The investigation prompted Ms. Holmes to issue a
follow-up counseling report on April 15, 2015, citing
Mr. Wantou Siantou for a Level III reprimand. April
15, 2015 Counseling Report, Ex. 13, ECF No. 72-14.
Mr. Wantou Siantou was continuing to raise
complaints during this period of time. On April 2, 2015
– one day after Ms. Nguyen and Mr. Gerwig came to
the store to speak with him – he emailed Ms. Nguyen
and another CVS executive a document entitled
“Addendum to Title VII Complaint of Discrimination
Based on Race, Gender, and National Origin; and

5

Here, the timeline is again unclear. Mr. Gerwig estimated the call
to begin the investigation came in “probably one to two weeks
prior” to his March 11, 2015 interview with Mr. Wantou Siantou.

53a
Subsequent Retaliation Complaint.” Addendum to
Discrimination Compl., Ex. 16, ECF No. 72-17. The
document said he found their visit the day before
intimidating and felt it “raised concerns of unfairness
and further retaliation for filing a Title VII Complaint.”
Id. It further asserted that he was being held to an
unfair standard while working in an especially
challenging environment, which resulted in a poor
yearly performance evaluation. Id. at 3. “If I were a
White pharmacist,” he wrote, “let alone a White
American born female pharmacist, I would not have
been assigned as Manager in store 1469 and I would
have been held to different standards.” Id.
The document stated that he wished to be
transferred to a different store. Id. The next day, Ms.
Nguyen offered him the opportunity to accept a
position as pharmacist in charge at a store in
Hollywood, Maryland, or as a staff pharmacist at either
of two stores in New Carollton. See Transfer Offer, Ex.
19, ECF No. 72-20. He declined all three options. See
Wantou Siantou Dep. 348:10-349:20.
Mr. Wantou Siantou took a leave of absence in April
2015 but continued to make complaints against Ms.
Holmes and Ms. Nguyen, raising allegations against
them in a pair of reports submitted to the CVS ethics
complaint line in May 2015. See Ethics Line Reports 13, Ex. 20, ECF No. 72-21. On May 20, 2015, he filed a
charge with the Prince George’s County Human
Relations Commission and the EEOC alleging the
company had retaliated against him in response to the
discrimination complaint he submitted to Ms. Nguyen

54a
in March 2015. See May 2015 EEOC Charge, Ex. 14,
ECF No. 72-15.
Reprimands for Failing Scores on Store Audits
During the summer and fall of 2015, the regional
loss prevention officer, Mr. Gerwig, conducted a series
of walkthroughs and audits of the Oxon Hill store. See
Gerwig Dep. 78:20-79:16. Under company policy at the
time, a pharmacy receiving a score of less than 85
percent on a baseline audit was said to have failed,
triggering the need for a follow-up audit. Gerwig Decl.
¶¶ 7, 10. These audits had consequences for the store’s
pharmacist in charge, who, in accordance with store
policy, would receive a Level II reprimand for the
initial failing score and a Level III “final warning”
should the store also fail the follow-up audit. Id. ¶¶ 78, 11. Neither the loss prevention manager nor the
pharmacy supervisor has any discretion over the
issuance of reprimands under these circumstances. See
Gerwig Decl. ¶ 8.
Mr. Gerwig audited the Oxon Hill store on August
19, 2015, roughly 30 days after Mr. Wantou Siantou
returned from his leave of absence. See August 2015
Audit Scorecard, Ex. 4(A), ECF No. 72-5; Wantou
Siantou Decl. ¶ 47-48. The audit yielded a failing score
of 82.22 percent. August 2015 Audit Scorecard. The
store failed a follow-up audit on October 1, 2015, this
time receiving a score of 84.78 percent. See October
2015 Corrective Action Record 1, Ex. 3(F), ECF No. 724. Mr. Wantou Siantou received Level II and Level III

55a
reprimands for these audits, respectively.6 See August
2015 Corrective Action Record 2, Ex. 3(E), ECF No. 724; October 2015 Corrective Action Record 3. Mr. Gerwig
has said that at no time while working on these audits
was he aware that Mr. Wantou Siantou had filed any
complaints of discrimination or retaliation. See Gerwig
Decl. ¶ 13.
In between the two audits, Mr. Wantou Siantou
filed new paperwork with the Prince George’s County
Human Relations Commission and EEOC
supplementing his earlier charge. See September 2015
EEOC Charge, Ex. 34, ECF No. 72-35. The new filing
took issue with the reprimand he received as a result
of the failed August 2015 audit, asserting the company
took this step “in further retaliation” because of his
previous EEOC charge. Id.
Mr. Wantou Siantou continued to air his concerns
through the CVS ethics complaint line. On October 3,
2015, just after the loss prevention officer completed
the follow-up audit, he alleged the audits “were set up
by management as retaliation” for his internal
discrimination complaint and EEOC charge. Ethics
6

The Oxon Hill store had in fact failed an earlier audit in May
2015, while Mr. Wantou Siantou was on leave. See Holmes Decl.
¶ 9. Accordingly, the company initially issued him a Level III
reprimand following the store’s failing score on the August 19,
2015 audit. See id. The company reduced the reprimand to Level
II because Mr. Wantou Siantou had been on leave at the time of
the May audit. See id. Ms. Holmes notified him of the “correction”
on September 21, 2015, see “Baseline Accountability” Correction
Email, Ex. 3(E), ECF No. 72-4, two days before he complained
about the reprimand in a supplemental filing with the EEOC, see
September 2015 EEOC Charge, Ex. 34, ECF No. 72-35.

56a
Line Reports 4. He lodged more complaints via the
ethics complaint line on November 7, 2015, and
December 9, 2015, complaining that his supervisors
were not appreciating his hard work and that his
partner, Ms. Taylor, was not shouldering her share of
the workload. See id. at 4-9. He maintained that the
company was discriminating against him on account of
his race, gender, and national origin and was
retaliating against him because of his various
complaints. See id. at 5, 7.
Termination
The conflict between Mr. Wantou Siantou and Ms.
Holmes came to a head in the two months following
November 4, 2015, when a physical fight broke out
between a pharmacy technician named Latara
Wellman and a disgruntled customer at the store. See
Application for Statement of Charges, Ex. 23, ECF No.
72-24. Ms. Holmes ordered Mr. Wantou Siantou to fire
Ms. Wellman, although there is a dispute over exactly
when she issued those instructions. Ms. Holmes stated
in her deposition, and the company has asserted in its
answers to interrogatories, that she first gave the order
in late November 2015 and then repeated the
instructions during a store visit on December 17, 2015,
after learning that Mr. Wantou Siantou had not
followed through on the order. See Holmes Dep. 284:1019, 289:1-290:21; Def.’s Suppl. Resps. 7, Nguyen Dep.
Ex. 1, Ex. 1(B), ECF No. 72-2.
Mr. Wantou Siantou has maintained that he did not
learn about the directive until Store Manager
Adebowale “Roland” Saibu mentioned it sometime
between January 4 and January 6, 2016, shortly after

57a
Mr. Wantou returned from a two-week vacation. See
Wantou Siantou Dep. 465:14-18; Wantou Siantou Decl.
¶ 56. Saibu told him Ms. Holmes “wants you to let [Ms.
Wellman] go ASAP.” Saibu Dep. 66:5-67:7. Mr. Wantou
Siantou said he “wasn’t comfortable doing it,” saying he
felt as though he was being “set up.” Id. at 67:9-19.
Mr. Wantou Siantou lodged more complaints via the
CVS ethics complaint line on January 3, January 5,
and January 6, 2016, repeating his past allegations
that the company was discriminating against him and
retaliating for his previous complaints. See Ethics Line
Reports 9-14. On the morning of January 8, 2016, Ms.
Holmes texted Mr. Wantou Siantou, asking, “Has
Latara been terminated?” January 8, 2016 Texts, Ex
3(G), ECF No. 72-4. Mr. Wantou Siantou replied that
he had “just tried to call” her. Id. In an ensuing phone
call, Mr. Wantou Siantou asked her if she could put the
directive in writing. See Wantou Siantou Dep. 432:22433:3. She refused. See id. at 433:4-5. Ms. Holmes told
him he must fire Ms. Wellman “by the end of the day or
it would be considered insubordination, which would
lead to his termination.” See Termination Report, Ex
3(J), ECF No. 72-4; Wantou Siantou Dep. 432:18-20.
Mr. Wantou Siantou promptly called the CVS ethics
complaint line, accusing Ms. Holmes of putting him “in
an impossible situation.” Ethics Line Reports 14-15. He
alleged that Ms. Holmes was either “trying to get [him]
fired” or forcing him into a confrontation with Ms.
Wellman, which could “endanger[] his life.” Id. at 15.
Mr. Wantou Siantou removed Ms. Wellman from
the store schedule but did not fire her. See Termination
Report. Three days later, on January 11, 2016, Ms.

58a
Holmes told him he was fired. See id. Ms. Holmes said
in her deposition that his failure to fire Ms. Wellman
was the sole reason for his termination. See Holmes
Dep. 107:6-10.
Procedural History
Mr. Wantou Siantou brought this suit against CVS
on December 14, 2016. Compl., ECF No. 1. The
Amended Complaint accused CVS of discriminating
against him on the basis of race (Count I), national
origin (Count II), and gender (Count III). See Am.
Compl. ¶¶ 61-111, ECF No. 29. Mr. Wantou Siantou
also brought a claim of retaliation under federal and
state law (Count IV). See id. ¶¶ 112-29.
CVS filed an unopposed motion to dismiss in part,
arguing Mr. Wantou Siantou had failed to
administratively exhaust his discrimination claims
under Title VII of the Civil Rights Act of 1964 and the
Maryland Fair Employment Practices Act (“MFEPA”).
See ECF Nos. 41, 42. I granted the motion, ECF No. 46,
leaving Mr. Wantou Siantou to proceed on the following
claims only: racial discrimination under 42 U.S.C.
§ 1981 (Count I) and retaliation under Title VII, 42
U.S.C. § 1981, and the MFEPA (Count IV).
CVS now moves for summary judgment on the
remaining claims. See ECF No. 67. The parties have

59a
fully briefed their arguments.7 See ECF Nos. 67, 70, 71,

7

Mr. Wantou Siantou has requested leave of the Court to file a
surreply. See Mot. for Leave, ECF No. 73. His motion
acknowledges that surreplies are “highly disfavored and rarely
granted,” id., but argues the request is justified here because
CVS’s reply raised two arguments that did not appear in its motion
for summary judgment: first, that the company could not have
retaliated against him because Ms. Nguyen reached out to his
union representative in an effort to help him avoid termination
and, second, that he admitted he received instructions to fire Ms.
Wellman prior to his January 8, 2016 conversation with Ms.
Holmes. See id. at 3-4.
Whether to allow a surreply is within the Court’s discretion.
See Loc. R. 105.2.a; Courtney-Pope v. Bd. of Educ. Of Carroll Cty.,
304 F. Supp. 3d 480, 485 (D. Md. 2018). Generally, courts do not
permit a party to file a surreply unless it otherwise would not have
an opportunity to contest a matter the nonmoving party had failed
to present prior to its reply. See Clear Channel Outdoor, Inc. v.
Mayor & City Council of Balt., 22 F. Supp. 3d 519, 529 (D. Md.
2014). That is not the case here. CVS’s reply did exactly what a
reply ought to do: it responded to arguments raised in the response
in opposition to its motion. See id. None of the arguments in the
reply could have caught Mr. Wantou Siantou by surprise. Indeed,
the motion for leave to file a surreply acknowledges that Ms.
Nguyen’s outreach to the union representative was not new
information, as CVS had mentioned this communication in its
motion for summary judgment. See Mot. for Leave 3; Mot. for
Summ. J. ¶ 87. Likewise, Mr. Wantou Siantou cannot plausibly
argue he did not know CVS would assert he knew about the order
to fire Ms. Wellman before January 8, 2016, seeing as his response
in opposition devoted at least six pages to his contention that Ms.
Holmes’s claims to the contrary were false. See Resp. in Opp’n 2127.
Mr. Wantou Siantou’s motion also argues a surreply is
warranted because CVS “produced over two hundred pages of
supplemental discovery and privilege logs after the close of
discovery and two days prior to filing its Reply.” Mot. for Leave 4.

60a
72. No hearing is necessary. See Loc. R. 105.6.
STANDARD OF REVIEW
Rule 56(a) of the Federal Rules of Civil Procedure
obliges a court to enter summary judgment in a
movant’s favor upon a showing that “there is no
genuine dispute as to any material fact and the movant
is entitled to judgment as a matter of law.” Fed. R. Civ.
P. 56(a). A material fact is one that ‘might affect the
outcome of the suit under the governing law.’” Smith v.
Renal Treatment Ctrs.-Mid-Atl., Inc., No. RDB-16-3656,
2018 WL 950018, at *4 (D. Md. Feb. 20, 2018), aff’d,
736 F. App’x 68 (4th Cir. 2018). “A dispute of material
fact is genuine if the evidence would allow the trier of
fact to return a verdict for the nonmoving party.”
United Bank v. Buckingham, 301 F. Supp. 3d 561, 568
(D. Md. 2018). The court must view the facts and make
all reasonable inferences “in the light most favorable to
the nonmoving party.” Bauer v. Lynch, 812 F.3d 340,
347 (4th Cir. 2016). In doing so, though, the court
maintains an “affirmative obligation to prevent
factually unsupported claims and defenses from going
to trial.” Smith, 2018 WL 950018, at *4. “The mere
existence of a ‘scintilla’ of evidence in support of the
nonmoving party’s case is not sufficient” to defeat
summary judgment. Id.

It does not appear, though, that CVS relied on these filings in its
reply. (CVS states it did not. ECF No. 81.) That being so, I see no
reason to exercise my discretionary authority to authorize the
proposed surreply. Mr. Wantou Siantou’s motion is denied.

61a
DISCUSSION
CVS has moved for summary judgment on each of
Mr. Wantou Siantou’s remaining claims. I will examine
each claim in turn.
Racial Discrimination
Count I of the Amended Complaint argues CVS
discriminated against Mr. Wantou Siantou on the basis
of race in violation of three statutes: Section 2000e-2 of
Title VII of the Civil Rights Act of 1964, 42 U.S.C.
§ 2000e-2; 42 U.S.C. § 1981; and MFEPA Section 20606(a). See Am. Compl. 6-7. I previously dismissed the
Title VII and MFEPA discrimination claims, see ECF
No. 46, so only the § 1981 claim is before me.
Section 1981 guarantees that people of all races
shall have an equal right to “make and enforce
contracts,” including “the making, performance,
modification, and termination of contracts, and the
enjoyment of all benefits, privileges, terms, and
conditions of the contractual relationship.” 42 U.S.C.
§ 1981(a), (b). The Supreme Court long ago held that
this statute, like Title VII, authorizes suits alleging
racial discrimination in private employment. See
Johnson v. Ry. Express Agency, Inc., 421 U.S. 454, 45960 (1975).
While the two statutes are not identical,8 courts
generally apply the same framework when analyzing
8

Most notably, § 1981 does not require the exhaustion of
administrative remedies as a precondition to bringing suit; Title
VII does. See Sillah v. Burwell, 244 F. Supp. 3d 499, 512 n.11 (D.
Md. 2017).

62a
claims under either of them. See Smith v. Renal
Treatment Ctrs.-Mid-Atl., Inc., No. RDB-16-3656, 2018
WL 950018, at *5 (D. Md. Feb. 20, 2018), aff’d, 736 F.
App’x 68 (4th Cir. 2018); Perkins v. Kaiser Found.
Health Plan of Mid-Atl. States, Inc., No. DKC-08-3340,
2010 WL 889673, at *3 (D. Md. Mar. 5, 2010). Under
either statute, a plaintiff may establish its claim and
defeat summary judgment in either of two ways. First,
the plaintiff may present “direct or circumstantial
evidence that his race was a motivating factor in the
employer’s adverse employment action.” Holland v.
Washington Homes, Inc., 487 F.3d 208, 213 (4th Cir.
2007). When that route is unavailable, the plaintiff
“must proceed under the familiar burden shifting
standard” the Supreme Court established in McDonnell
Douglas Corp. v. Green, 411 U.S. 792 (1973). Pulley v.
KPMG Consulting, Inc., 348 F. Supp. 2d 388, 394 (D.
Md. 2004), aff’d, 183 F. App’x 387 (4th Cir. 2006). Mr.
Wantou Siantou has not presented direct or
circumstantial evidence of discriminatory intent here,
so the McDonnell Douglas framework governs his
claim.
Under McDonnell Douglas, a plaintiff must first
make out a prima facie case of discrimination. Holland,
487 F.3d at 214. Invariably, the plaintiff must show
that (1) he is a member of a protected class; (2) he
suffered an adverse employment action; and (3) at the
time of the adverse action, he was performing his job
duties at a level that met his employer’s legitimate
expectations. Id. In cases where the adverse
employment action was a termination, the plaintiff
must also show that “the position remained open or
was filled by similarly qualified applicants outside the

63a
protected class.” Id. For other varieties of adverse
actions, the plaintiff bears the burden of showing “he
was treated differently from other similarly situated
persons who are not members” of the protected class.
Pulley, 348 F. Supp. 2d at 394.
If, upon review, the plaintiff “establishes a prima
facie case of discrimination, the burden of production
then shifts to the defendant to offer a legitimate, nondiscriminatory reason for its conduct.” Smith, 2018 WL
950018, at *5. A successful showing here will then shift
the burden back to the plaintiff “to prove that the
employer’s legitimate reason for the adverse action is
merely a pretext.” Id.
Mr. Wantou Siantou, a black man, is plainly a
member of a protected class. See Pulley, 348 F. Supp.
2d at 394. Beyond that, though, it is not at all clear
how he expects the Court to conclude that he can
establish a prima facie case of discrimination as a
matter of law. His response in opposition to the motion
for summary judgment gives the § 1981 discrimination
claim short shrift, devoting only a single, threesentence paragraph to it. See Resp. in Opp’n 35, ECF
No. 71. The first sentence states only that Mr. Wantou
Siantou alleges discrimination under § 1981. Id. The
second lists the elements of a prima facie claim of
discrimination. Id. The paragraph then concludes:
“Wantou has clearly set forth a plausible claim of
discrimination based on the disparate treatment
between Wantou and Brenda Taylor by Holmes.” Id.
This is an unusual claim, to say the least. To be
sure, Mr. Wantou’s complaints to CVS are replete with
allegations that Ms. Taylor, the store’s staff

64a
pharmacist, received favorable treatment in spite of
chronic performance issues. See, e.g., March 1, 2015
Complaint 1. It is difficult to see, though, how these
assertions could support a claim of racial
discrimination, considering Ms. Taylor is herself a
member of the same racial minority as Mr. Wantou
Siantou. See Wantou Siantou Decl. § 21. To the extent,
then, that Mr. Wantou Siantou alleges the various
reprimands preceding his termination were actionable
under § 1981, he has failed to demonstrate that he
received “different treatment from similarly situated
employees outside the protected class.” Sanders v.
Tikras Tech. Sols. Corp., 725 F. App’x 228, 230 (4th Cir.
2018) (per curiam); see Byrd v. Balt. Sun Co., 279 F.
Supp. 2d 662, 669 (D. Md. 2003) (holding that no
reasonable jury could find for plaintiff on his Title VII
and § 1981 racial discrimination claims, in part
because plaintiff “was unable to identify a single person
that was treated differently in circumstances
comparable to his, much less a person outside of the
class”).
While the response in opposition does not clearly
state whether Mr. Wantou Siantou believes his
termination on January 11, 2016, was itself
discriminatory, I would consider this assertion
defective in much the same way. The “general rule” in
the Fourth Circuit is that a plaintiff challenging his
termination under § 2000e-2 (and by extension § 1981)
must show that he was “replaced by someone outside
[his] protected class.” Mabry v. Capital One, NA., No.
GJH-13-02059, 2014 WL 6875791, at *4 (D. Md. Dec. 3,
2014) (quoting Miles v. Dell, 429 F.3d 480, 486 (4th Cir.
2005)). This rule gives way in “limited situations” – for

65a
instance, when the plaintiff “can show that the firing
and replacement hiring decisions were made by
different decision-makers,” id. (quoting Miles, 429 F.3d
at 485), or where the “decision to hire another person
from within the protected class is done to disguise the
act of discrimination,” id. at *5 n.3. Here, there is no
dispute that CVS replaced Mr. Wantou Siantou with a
pharmacist of the same race, see Holmes Decl. ¶ 11;
Wantou Siantou Dep. 560:8-22, and Mr. Wantou
Siantou has not attempted to show that any of the
exceptions to the general rule apply.
The lack of a genuine dispute of material fact on
these points establishes an inference that the adverse
employment actions alleged in the Amended Complaint
were unrelated to Mr. Wantou Siantou’s race. See
Miles, 429 F.3d 490 n.7. Other undisputed facts point
in the same direction. For example, Mr. Wantou
Siantou does not deny that the supervisor who made
the decision to fire him, Ms. Holmes, is herself a
member of the protected class. See Wantou Siantou
Decl. ¶ 19 (identifying Ms. Holmes as an “African
American Female”). He has also personally observed
that a “disproportionately” high percentage of the
pharmacists hired at the Oxon Hill store have been
African men, such as himself. See Addendum to
Discrimination Compl. 2. More than that, he has
asserted that he “would not have been assigned as
pharmacy manager [there] had [he] been a White
man.” Id. This last assertion is entirely at odds with his
discrimination claim. Mr. Wantou Siantou can hardly
expect a reasonable factfinder to conclude that CVS
fired him because of his race if, in the same breath, he

66a
argues his race was the reason he got the job in the
first place.
In short, Mr. Wantou Siantou has not established a
prima facie case of racial discrimination under § 1981.
As to Count I, CVS’s motion for summary judgment is
granted.
Retaliation
Mr. Wantou Siantou is far more zealous in arguing
that his retaliation claims survive summary judgment.
Those claims, comprising Count IV of the Amended
Complaint, arise under three statutes: Title VII, 42
U.S.C. § 2000e-3(a); § 1981; and the MFEPA, Md. Code
Ann., State Gov’t § 20-606(f). The same analysis applies
to all three claims. See Hawkins v. Leggett, 955 F.
Supp. 2d 474, 497 (D. Md. 2013), aff’d sub nom. In re
Canarte, 558 F. App’x 327 (4th Cir. 2014) (per curiam);
Tibbs v. Balt. City Police Dep’t, No. RDB-11-1335, 2012
WL 3655564, at *3 (D. Md. Aug. 23, 2012).
Once again, in the absence of direct evidence,
McDonnell Douglas supplies the applicable framework.
To begin, the plaintiff first bears the burden of
establishing a prima facie case of retaliation. To do
this, he must show that (1) he “engaged in a protected
activity”; (2) his employer “acted adversely against
him”; and (3) “the protected activity was causally
connected to the adverse action.” Holland, 487 F.3d at
218. If the plaintiff makes the requisite showing, “the
employer may then rebut the prima facie case by
showing there was a legitimate non-discriminatory
reason for the adverse action, after which the burden
shifts back to the plaintiff to show that those reasons

67a
are pretextual.” Munday v. Waste Mgmt. of N. Am.,
Inc., 126 F.3d 239, 242 (4th Cir. 1997) (citation
omitted).
A.
CVS argues Mr. Wantou Siantou cannot establish
a prima facie case of retaliation, see Mot. for Summ. J.
30-33, so my analysis begins there. The first question
is whether he engaged in a protected activity.
“Protected opposition activity can take numerous
forms,” from formal charges of discrimination to
informal grievances or protests. Strothers v. City of
Laurel, Md., 895 F.3d 317, 328 n.4 (4th Cir. 2018). “To
warrant protection, the employee’s perception of a
violation must be ‘objectively reasonable’ under the
circumstances known to [him].” Id. at 328.
Here, there does not appear to be any dispute that
Mr. Wantou Siantou’s various complaints to the
company and to the EEOC constitute “protected
activity.” The portions of CVS’s motion for summary
judgment and reply addressing the retaliation claims
do not expressly argue that the allegations in these
complaints were not objectively reasonable (nor, for
that matter, do they even note that the prima facie case
requires a showing of objective reasonability). See Mot.
for Summ. J. 30-33; Reply 1-3, 7-16. While I have
already explained why Mr. Wantou Siantou’s racial
discrimination claim rested on a weak foundation, his
allegations that the company discriminated against
him on the basis of his national origin and gender were
not so glaringly faulty. At the very least, he has amply
demonstrated that there were distinctions in the way
the company treated him as compared to his colleague

68a
Ms. Taylor, a native-born American woman. March 1,
2015 Complaint 1. At this stage, where I must view the
facts in the light most favorable to Mr. Wantou
Siantou, as the nonmoving party, I am satisfied that a
reasonable juror could find he had “reason to believe”
he was the victim of discrimination. Strothers, 895 F.3d
at 328. I conclude, therefore, that Mr. Wantou Siantou
was engaged in a protected activity.
B.
This leads me to the second element of the prima
facie case: the requirement of an adverse action.9 There
is no question that Mr. Wantou Siantou’s termination
qualifies as an adverse action. See Perkins, 2010 WL
889673, at *6. CVS, though, argues the other
disciplinary actions it took against him do not. I
disagree.
To establish an adverse action for a retaliation
claim, “a plaintiff must show that a reasonable
employee would have found the challenged action
materially adverse.” Wonasue v. Univ. of Md. Alumni
Ass’n, 984 F. Supp. 2d 480, 491-92 (D. Md. 2013)
(quoting Madock v. McHugh, No. ELH-10-2706, 2011
WL 3654460, at *26 (D. Md. Aug. 18, 2011)). An action
is said to be “materially adverse” when it “is one that
‘well might have dissuaded a reasonable worker’ from

9

The Fourth Circuit recently noted that some district courts have
continued to use the phrase “adverse employment action,” rather
than “adverse action.” Strothers, 895 F.3d at 327 n.3. The appellate
court clarified that the latter phrasing is more appropriate, given
that “an adverse action need not be employment- or workplacerelated in order to sustain a retaliation claim.” Id.

69a
engaging in protected conduct.” Wells v. Gates, 336 F.
App’x 378, 383 (4th Cir. 2009) (per curiam) (quoting
Burlington N. & Santa Fe Ry. Co. v. White, 548 U.S. 53,
68 (2006)).
Mr. Wantou Siantou’s response in opposition to the
motion for summary judgment argues that, in addition
to the termination, the Level II and Level III
reprimands he received in 2015 were retaliatory. See
Resp. in Opp’n 21, 34. Mr. Wantou Siantou received
three such reprimands. The first was a Level III
reprimand issued on April 15, 2015, in response to his
allegedly unexcused absence from the pharmacy while
sick with the flu. See April 15, 2015 Counseling Report.
The other two were issued in August and October 2015
in connection with the failing scores on the store’s
audits.10 See August 2015 Corrective Action Record 2;
October 2015 Corrective Action Record 3.
CVS cites Amirmokri v. Abraham, 437 F. Supp. 2d
414 (D. Md. 2006), for the proposition that “a formal
letter of reprimand is not generally an adverse
employment action.” Mot. for Summ. J. 31. That case,
though, applied an outdated interpretation of “adverse
action.” In Amirmokri, the court recited thencontrolling Fourth Circuit precedent holding that a
plaintiff seeking to make a prima facie case of
retaliation “must show the defendant’s actions
10

Mr. Wantou Siantou also received a Level II reprimand for
arriving late to work on November 18, 2014, but the company later
withdrew the reprimand and issued a verbal warning instead. See
Nguyen Note. His response in opposition to the motion for
summary judgment does not assert that the verbal warning
constituted an adverse action for purposes of a retaliation claim.

70a
‘adversely affected the terms, conditions, or benefits of
plaintiffs employment.’” 437 F. Supp. 2d at 422
(quoting Von Gunten v. Maryland, 243 F.3d 858, 861
(4th Cir. 2001), abrogated by Burlington N., 548 U.S.
53 (2006)). The Supreme Court struck down that
precedent just a few weeks later in Burlington
Northern & Santa Fe Railway Co. v. White, holding
that the standard for a materially adverse action in a
retaliation claim is not the same as the standard in
discrimination claims. 548 U.S. at 64. Burlington
Northern clarified that, to succeed on a retaliation
claim, the plaintiff need only show that the challenged
action “well might have ‘dissuaded a reasonable worker
from making or supporting a charge of discrimination.’”
Id. at 68 (quoting Rochon v. Gonzales, 438 F.3d 1211,
1219 (D.C. Cir. 2006)).
Applying this less exacting standard, courts easily
have concluded that reprimands may qualify as
adverse actions under some conditions. In Smith v.
Board of Education of Prince George’s County, the court
explained that reprimands “suggestive of an impact to
the terms and conditions of employment may be the
subject of a retaliation claim.” No. GJH-16-206, 2017
WL 6278798, at *3 (D. Md. Dec. 8, 2017). There, the
court determined that a “letter of professional
counseling” was an adverse action because it
“suggested that Plaintiffs failure to improve her
performance could result in termination.” Id.
The Level II and Level III reprimands in this case
are no less actionable. CVS’ s counseling reports are
part of an employee’s personnel record. See, e.g., April
2015 Counseling Report. Here, the reports state that

71a
future failures to comply with company policies “may
result in further disciplinary action, up to and
including termination.” Id.; see August 2015 Corrective
Action Record 2; October 2015 Corrective Action Record
3. A Level III writeup is particularly serious; a CVS
ethics complaint line report characterizes this level as
“one step away from being terminated.” CVS Ethics
Line Reports 1. It seems evident to me that these
reprimands surely could discourage a reasonable
employee from speaking out about perceived violations
of employment law. See Smith, 2017 WL 6278798, at
*3.
CVS points out that Mr. Wantou Siantou
acknowledged in his deposition testimony that the
April 2015 reprimand did not stop him from filing
further complaints. Mot. for Summ. J. 31 (citing
Wantou Siantou Dep. 221:14-21). The standard,
though, is an objective standard, not a subjective one.
See Burlington N, 548 U.S. at 69. It makes no
difference whether Mr. Wantou Siantou was
undeterred, so long as the adverse action might have
dissuaded a hypothetical “reasonable” employee. In my
view, the Level II and III reprimands clearly satisfy
this standard.
C.
The third and final element of the prima facie case
necessitates a showing that “a causal connection
existed between the protected activity and the adverse
action.” Wonasue, 984 F. Supp. 2d at 491. As the
Fourth Circuit recently explained, “establishing a
‘causal relationship’ at the prima facie stage is not an
onerous burden.” Strothers, 895 F.3d at 335. To clear

72a
the bar, the employee need only show “that (1) the
employer either understood or should have understood
the employee to be engaged in protected activity and
(2) the employer took adverse action against the
employee soon after becoming aware of such activity.”
Id. at 335-36.
CVS argues the requisite causal connection was
lacking here because Mr. Wantou Siantou had been
registering substantially similar complaints for nearly
the entire duration of his employment, as though the
cumulative effect of his many grievances somehow
vitiates their potential to spur a retaliatory response.
I reject this reasoning. An employer is not necessarily
any less likely to retaliate against an employee who
files a series of complaints than against an employee
who files just one complaint. To the contrary, an
employer is more likely to retaliate against an
employee whom it regards as a problem, based on the
non-stop filing of complaints, than against one who
complained a single time during a multi-year
employment tenure. So long as the employer had
knowledge of the protected activity (or activities) and
effected the adverse action soon after one or more of
those activities came to its attention, the causation
element of the prima facie case of retaliation is
satisfied. See Strothers, 895 F.3d at 336-37.
Here, Mr. Wantou Siantou filed so many complaints
that a reasonable fact finder may well conclude that
the requisite causal connection was present for both
the April 2015 Level III reprimand and the January 11,
2016 decision to fire Mr. Wantou Siantou. In each
instance, the supervisor responsible for the adverse

73a
action (Ms. Holmes) was apparently aware that he had
recently leveled complaints against her and the
company. See Holmes Dep. 238:18-239:15. The April
2015 Level III writeup came six weeks after Mr.
Wantou Siantou emailed his “formal complaint” to Ms.
Holmes and other CVS managers and two weeks after
he emailed the “addendum” to Ms. Nguyen. See March
1, 2015 Complaint 1; Addendum. The temporal
proximity is even stronger in the case of Mr. Wantou
Siantou’s termination, which occurred mere days after
he registered a series of complaints with the CVS
ethics complaint line. See Ethics Line Reports 9-15.
These facts persuade me that Mr. Wantou Siantou has
met his burden, at the summary judgment stage, of
establishing a prima facie case for both the April 2015
Level III warning and his January 2016 termination.
My assessment of the circumstances surrounding
the Level II and Level III reprimands he received in
response to the store’s audit scores leads me to a
different conclusion. Throughout Mr. Wantou Siantou’s
tenure as pharmacist-in-charge at the Oxon Hill store,
the store was on the list of “focus stores” the company’s
regional loss prevention officer was required to audit on
a monthly basis. Gerwig Dep. 48:20-22, 66:9-16. The
loss prevention officer had discretion over whether
those audits should extend to the store’s pharmacy
section, see id. at 72:18-73:14, but it was considered a
“best practice” to audit the pharmacy along with the
rest of the store, id. at 85:10-13. Mr. Gerwig, the loss
prevention officer, said in his deposition that no one
requested the August 2015 audit (the first of the two
audits for which Mr. Wantou Siantou would be
reprimanded). See id. at 85:17-86:8. He has also said

74a
that, at the time he conducted that audit and the one
that followed, he “had no knowledge that Wantou
[Siantou] had complained about discrimination or
retaliation internally within CVS or to an
administrative agency.” Gerwig Decl. ¶ 13.
Mr. Gerwig explained that company policy imposed
mandatory consequences for a failing score on an audit.
If a pharmacy scored too low, the company would issue
a Level II reprimand to the pharmacist-in-charge.
Gerwig Decl. ¶ 7. The failing score would automatically
trigger the loss prevention officer to conduct a follow-up
audit within 30 days. See Gerwig Dep. 85:3-6; Gerwig
Decl. ¶ 10. If the pharmacy failed yet again, the
pharmacist-in-charge would receive a Level III “final
warning.” Gerwig Decl. ¶ 11. Mr. Gerwig explained
that neither he nor the pharmacy supervisor had any
discretion over the issuance of reprimands for failed
audits. Id. ¶ 8.
Mr. Wantou Siantou does not appear to have placed
any of these facts in dispute. See Resp. in Opp’n 6
(acknowledging that the Oxon Hill store was a “focus
store” that had “failed many, many prior audits”). It
seems to me, then, that a reasonable factfinder would
have to conclude there was no causal connection
between Mr. Wantou Siantou’s various complaints and
the audits that automatically triggered the August and
October 2015 reprimands. His allegations that these
particular reprimands were retaliatory do not survive
summary judgment.

75a
D.
To summarize, I conclude that genuine disputes of
material fact exist that would allow Mr. Wantou
Siantou to establish a prima facie case that the April
2015 Level III reprimand and his termination were
retaliatory, but not the August and October 2015
reprimands relating to the store’s audit scores. Under
the McDonnell Douglas framework, the burden now
shifts – first to CVS to establish legitimate, nondiscriminatory reasons for its adverse actions, and then
back to Mr. Wantou Siantou to demonstrate that those
reasons were pretextual. See Munday, 126 F.3d at 242.
CVS easily meets its burden – which, I note, is a
burden of production, not of persuasion. See Battle v.
Price, No. PWG-14-2250, 2018 WL 1963791, at *2 (D.
Md. Apr. 25, 2018). This is not a case where the
company purported to censure a worker in light of
subjective assessments that his job performance was
subpar. See Patrick v. Ridge, 394 F.3d 311, 316-17 (5th
Cir. 2004) (explaining the employer “must articulate in
some detail a more specific reason than its own vague
and conclusional feeling about the employee”). Here,
rather, the company attributed its adverse actions to
specific incidents of sanctionable conduct. The April
2015 counseling report alleges Mr. Wantou Siantou
violated state regualtions and company policy by
leaving the pharmacy unsupervised for two and a half
hours. See April 15, 2015 Counseling Report. Similarly,
the company’s writeup of its decision to terminate his
employment in January 2016 alleges he did not comply
with orders to fire a member of his staff who had
punched a customer in the face. See Termination

76a
Report 1-2. These assertions are sufficiently specific to
rebut Mr. Wantou Siantou’s prima facie case and afford
him an opportunity, under the final step in the
McDonnell Douglas test, to show the stated reasons
were, in fact, pretextual. See Patrick, 394 F.3d at 317.
Here, again, we must consider causation. Now,
though, the employee faces a heavier burden than he
did at the prima facie stage. To meet this burden, the
employee must demonstrate “that retaliation was the
actual reason for the challenged” adverse action. Foster
v. Univ. of Md.-E. Shore, 787 F.3d 243, 252 (4th Cir.
2015). That is to say, he “must establish ‘both that the
employer’s reason was false and that retaliation was
the real reason for the challenged conduct.’” Id.
(quoting Jiminez v. Mary Washington Coll., 57 F.3d
369, 378 (4th Cir. 1995)). The employee need not show
that the protected activity was the sole cause of the
adverse action. His burden, rather, is to show that it
was the “but-for” cause. See Guessous v. Fairview Prop.
Invs., LLC, 828 F.3d 208, 217 (4th Cir. 2016).
I will analyze each of the alleged retaliatory actions
independently,11 starting with the April 2015 Level III
reprimand for Mr. Wantou Siantou’s conduct while sick
with the flu on January 24, 2015. As CVS notes, he has
not denied that he left the pharmacy for stretches of

11

I have already explained that Mr. Wantou Siantou cannot
establish a causal connection between his protected activities and
the reprimands he received in response to the baseline audits of
the pharmacy. Suffice it to say, I would cite all the same reasons
in concluding that he cannot meet the more stringent burden of
showing that his complaints, rather than the failing audit scores,
were the real reason behind those reprimands.

77a
time that day to warm himself in his car. See Wantou
Siantou Dep. 191:6-7; Wantou Siantou Decl. ¶¶ 28-29.
Mr. Wantou Siantou notes, though, that this conduct
earned him a Level I reprimand on January 26, 2015.
See January 26, 2015 Counseling Report. It was not
until sometime later that Ms. Holmes decided to take
a “closer look” at the relevant company policies, Holmes
Dep. 211:5-18, which led her to consult another CVS
supervisor who had issued a harsher reprimand in
response to an arguably similar infraction, see id. at
212:13-214:10. Ms. Holmes was unclear about exactly
when she decided to commence her review, raising a
genuine dispute of material fact as to whether this
decision predated Mr. Wantou Siantou’s March 1,
2015 email registering a “formal complaint” of
discrimination. The record is similarly unclear on
whether it was Ms. Holmes or someone else who asked
the regional loss prevention officer to launch the
investigation that ultimately led to the April 2015
Level III reprimand. See Holmes Dep. 219:6-16; Gerwig
Dep. 92:11-93:12. So long as these facts are in dispute,
I must permit Mr. Wantou Siantou to proceed on his
claim that the April 2015 reprimand was retaliatory.
Finally, there is the matter of his termination. Mr.
Wantou Siantou’s response in opposition to the motion
for summary judgment argues emphatically that Ms.
Holmes was not telling the truth when she said she
personally instructed him on November 25, 2015, and
again on December 17, 2015, to fire Ms. Wellman. See
Resp. in Opp’n 21-25. He maintains it was entirely
reasonable for him to refuse the instructions when, by
his account, Ms. Holmes first issued them on January
8, 2016. See id. at 26. He suggests a factfinder could

78a
infer from the circumstances that Ms. Holmes
“concocted a story that she had previously told [him]
. . . to fire Wellman to create the appearance that [he]
was ‘insubordinate’ when he really was not.” Id. at 27.
Here is what is not in dispute in this case: Mr.
Wantou Siantou was Ms. Wellman’s direct supervisor.
Wantou Siantou Decl. ¶ 68. On November 4, 2015, Ms.
Wellman punched a customer – a fireable offense, if
there ever was one. See Gerwig Dep. 144:13-15. Mr.
Wantou Siantou was not present at the time but
became aware of the altercation (though not
necessarily all of the details) within a week of when it
happened. See Wantou Siantou Dep. 415:9-416:11; CVS
Ethics Line Reports 15 (noting he “had assumed all
along that the incident involving [Ms. Wellman] would
be investigated by the proper CVS authorities and
HR”). On January 5 or 6, 2016, the store manager, Mr.
Saibu, told Mr. Wantou Siantou that Ms. Holmes
“wants you to let [Ms. Wellman] go ASAP.” Saibu Dep.
66:5-67:7; see Wantou Siantou Dep. 457:20-458:19. Mr.
Wantou Siantou did not then fire Ms. Wellman or reach
out to Ms. Holmes to discuss the matter. See Wantou
Siantou Dep. 461:13-17. Ms. Holmes texted him on the
morning of January 8, 2016, asking, “Has Latara been
terminated?” January 8, 2016 Texts. Soon afterward,
according to Mr. Wantou Siantou, Ms. Holmes
explained in a phone call “that I have to fire [Ms.
Wellman] or that it would be considered
insubordination.” Wantou Siantou Dep. 432:18-20. Mr.
Wantou Siantou understood his refusal to comply with
the directive could cost him his job. See CVS Ethics
Line Reports 15 (documenting Mr. Wantou Siantou’s
concern on January 8, 2016, that Ms. Holmes might

79a
fire him for insubordination). Mr. Wantou Siantou
removed Ms. Wellman from the store schedule but did
not fire her. See Wantou Siantou Dep. 433:12-13.
In the face of these uncontested facts, Mr. Wantou
Siantou asks me to zero in on one assertion he does
dispute – namely, that Ms. Holmes ordered him to fire
Ms. Wellman on two prior occasions before finally
delivering an ultimatum on January 8, 2016. But what
of it? Even if I assume those conversations never took
place, there is still no question that Mr. Wantou
Siantou – knowing a member of his staff had physically
assaulted a customer (a fireable offense) – disobeyed a
direct order, despite a warning that his refusal to
comply with his supervisor’s instructions could result
in termination.
Granted, Mr. Wantou Siantou put in a series of calls
to the CVS ethics complaint line in the days leading up
to his termination. See Ethics Line Reports 9-14. Here,
though, he has not presented any facts tending to show
that these calls were the “real reason” Ms. Holmes
decided to terminate his employment. Foster, 787 F.3d
at 252. If anything, Ms. Holmes suggested his calls to
the ethics line did not faze her, telling him – after he
indicated during the January 8 phone call that he
planned to call the ethics line – that “he can call
whomever he wished, but he needs to complete the
termination before the end of the day.” Timeline, Ex.
28, ECF No. 72-29.
Mr. Wantou Siantou’s theory that the conflict over
Ms. Wellman’s termination was just a pretext for his
own termination is wanting in other ways as well. As
discussed above, the Oxon Hill store failed two audits

80a
under his watch. Had she been hunting for an excuse
to fire him, Ms. Holmes surely could have found it
there. Instead, the company reduced the August 2015
reprimand from Level III to Level II in recognition of
the fact that Mr. Wantou Siantou had been on leave at
the time of a previous audit. See Holmes Decl. ¶ 9.
Ultimately, I see no way for Mr. Wantou Siantou to
satisfy his burden of showing he would not have been
fired but for his complaints to management or the
EEOC. I conclude his termination does not support a
retaliation claim under state or federal law.
CONCLUSION
This Memorandum Opinion dispenses with most,
but not all, of Mr. Wantou Siantou’s claims. As to
Count I (racial discrimination under § 1981), I grant
summary judgment in favor of CVS. As to Count IV
(retaliation under state and federal law), I conclude
that the August 2015 and October 2015 reprimands
and Mr. Wantou Siantou’s January 2016 termination
do not survive summary judgment. However, the
retaliation claim based on the April 2015 Level III
reprimand may proceed. This claim, and only this
claim, will proceed to trial. I will shortly schedule a
telephone conference call with the parties to discuss
the trial and related scheduling matters.
A separate order follows.
/S/
Paul W. Grimm
United States District Judge

81a

APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND
Southern Division
Case No.: 8:17-cv-00543-PWG
[Filed: December 7, 2018]
_______________________________________
STEPHANE J. WANTOU SIANTOU, )
)
Plaintiff,
)
)
v.
)
)
CVS RX SERVICES, INC.
)
)
Defendant.
)
_______________________________________)
ORDER
For the reasons stated in the accompanying
Memorandum Opinion filed this same date, it is, this
7th day of December, 2018, hereby ORDERED that:
1. Defendant CVS Rx Services, Inc.’s Motion for
Summary Judgment, ECF No. 67, IS GRANTED IN
PART AND DENIED IN PART as follows:
a. GRANTED as to § 1981 racial discrimination
claim;

82a
b. GRANTED as to retaliation claims based on Mr.
Wantou Siantou’s termination and on the
August 2015 and October 2015 reprimands
related to the store’s audit scores; and
c. DENIED as to retaliation claim based on the
April 2015 reprimand related to Mr. Wantou
Siantou’s absence from the pharmacy on
January 24, 2015;
2. Plaintiff Stephane Wantou Siantou’s Motion for
Leave to File a Surreply, ECF No. 73, IS DENIED;
and
3. The Court will schedule a telephone conference call
with the parties to discuss the trial and related
scheduling matters.
/S/
Paul W. Grimm
United States District Judge

83a

APPENDIX G
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-2262 (L)
(8:17-cv-00543-PWG)
[Filed: January 20, 2021]
_______________________________________
STEPHANE J. WANTOU SIANTOU
)
)
Plaintiff - Appellant
)
)
v.
)
)
CVS RX SERVICES INC.
)
)
Defendant - Appellee
)
_______________________________________)
No. 19-2313
(8:17-cv-00543-PWG)
_______________________________________
STEPHANE J. WANTOU SIANTOU
)
)
Plaintiff - Appellee
)
)
v.
)
)

84a
CVS RX SERVICES INC.

)
)
Defendant - Appellant
)
_______________________________________)
ORDER
The court grants the motion to exceed length
limitations but denies the petition for rehearing and
rehearing en banc. No judge requested a poll under
Fed. R. App. P. 35 on the petition for rehearing en
banc.
The motions for leave to file amicus brief in support
of the petition are denied.
Entered at the direction of the panel: Judge Diaz,
Judge Harris, and Judge Quattlebaum.
For the Court
/s/ Patricia S. Connor, Clerk

85a

APPENDIX H
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MARYLAND,
_____________
PWG-17-0543
_____________
IN RE
WANTOU SIANTOU v. CVS RX SERVICES, INC.
_____________
Before: Judge GRIMM
Date: February 28, 2019
_____________
TRANSCRIPT OF JURY TRIAL PROCEEDINGS
_____________
THE COURT: Counsel, we have a note from the
jury. They have reached a verdict. And before I bring
them in, I just want to find out scheduling matters. I
have to be at a medical appointment tomorrow, so the
only time that we could continue this thing for
evidentiary purposes will be tomorrow afternoon and
then maybe one morning next week; can’t be Monday.
So, I want to know if they come back with a plaintiff’s
verdict, what is the intention of CVS? Do they intend to
add additional evidence? Do they want me just to
instruct and they’re going to argue? How are we going
to deal with that if they come back with a plaintiff’s

86a
verdict? I have no idea what the verdict is. I haven’t
seen it, I just know they have it.
MR. HARRIS: We haven’t thought about it, Judge,
but my guess is we’ll caucus momentarily.
THE COURT: Well, I want to -- the jury doesn’t
know that and I want to be able to tell them. They
think they’re done and that’s at the request of CVS. So,
I’ve got to -- I don’t want to tell them, there’s something
more we’re going to talk about, come on back in a
minute. Although, they may not have finished lunch
yet. They haven’t gotten lunch.
MR. HARRIS: Your Honor, our pleasure is probably
we’ll put on additional evidence.
THE COURT: Okay. When?
MR. HARRIS: That’s a terrific question. I know that
I’m scheduled to go out of town as well. So, we will
probably do it next week, I guess.
THE COURT: Well, yeah, okay. So, just want to be
aware of one thing. So, we have to call Alisca and find
out what date -- when it is tomorrow. It’s going to be
half a day, so it will have to be very compressed
evidence. You’re not going to be offering any evidence
on that, are you? You’ll cross-examine whoever they
call or argue whatever the documents are, correct?
MR. HARRIS: Correct.
THE COURT: All right. So, it’s going to have to be
necessarily really compressed. So it would be maybe a
hour and a half, two hours of evidence, opening -- the
jury instructions at the beginning, which is the format

87a
we said we would go, right? And then argument and
then they would have to go and decide. Yeah, I want to
find out when it would be -- if we’re not going to do it
tomorrow, when can we -- I need a half a day next week
as early as possible. It can’t be after -- it can’t be after
Wednesday, because I’m gone Thursday and Friday.
Okay. We can bring them in now.
(Pause.)
THE COURT: We might be able to do it starting
Monday morning, I think. We have Monday morning
open, right?
(A discussion was held off the record.)
MR. KENNEY: Judge, just my client informed me
that he’s scheduled to go back to Texas and has to go
back to work on Monday.
THE COURT: I mean, I can -- I’m more than happy
to have a new jury trial on punitive damages with a
brand new jury, if that’s what we have to do. Is that all
right?
MR. HARRIS: That’s fine.
THE COURT: Well, we’ll talk in just a minute.
(Jury enters.)
THE COURT: Have a seat, please. All right. Now,
let me just give you a heads-up as to what happens
next. We have a verdict and we thank you for your
hard work. There is a -- you’ll notice that sometimes in
court we do things and say -- use language that is not
the way people talk when they meet each other

88a
casually in our, in our conversations these days. So,
there’s sort of a fancy-dancy series of, sort of, flowery
language that our courtroom deputy is going to ask, but
basically, there’s going to be a question as to whether
or not you’ve reached a verdict and who shall say for
you. People don’t talk that way, but they did back in
England, I guess, and so that’s why we say it that way.
The answer to that quiz is, our foreperson. At that
point, the foreperson will stand, hand the envelope that
must have the special verdict sheet signed and sealed
to the courtroom deputy, Ms. Smith. She brings it to
me. I take a peek at it to make sure it’s dated and
signed the way it’s supposed to be. Then we put it back
in the envelope. We return it to the foreperson and
then she will read the special verdict sheet and the
foreperson will read the answer to the questions on the
special verdict sheet. After that, then the lawyers have
a right to have the jury polled, which just simply
means that each juror is, Juror Number One, is that
your verdict? Yes. Juror Number Two, is that your
verdict? Yes. And then after that’s all done, if the
lawyers want. Then there is the language of harken -the harkening language in which the judgment is
accepted and then that’s the final step in that phase.
So, I just want you to know what that is because you
may not have done that before. And when the question
is asked, who shall say for you and the jury kind of
looks around like, what? Nobody told us about that. I
want you to know the answer, “our foreperson”, all
right. With that in mind, Shante.
THE DEPUTY CLERK: We are here to receive the
verdict in criminal number -- excuse me -- Civil
Number PWG-17-543, Stephane J. Wantou Siantou

89a
versus CVS RX Services, Inc. Members of the jury, will
you please answer when I call your juror number?
Juror Number One.
JUROR: Yes.
THE COURT: Juror Number Two.
JUROR: Yes.
THE DEPUTY CLERK: Juror Number Three.
JUROR: Yes.
THE COURT: Juror Number Four.
JUROR: Yes.
THE DEPUTY CLERK: Juror Number Five.
JUROR: Yes.
THE DEPUTY CLERK: Juror Number Six.
JUROR: Yes.
THE COURT: Juror Number Seven.
JUROR: Yes.
THE DEPUTY CLERK: Juror Number Eight.
JUROR: Yes.
THE DEPUTY CLERK: Juror Number Nine.
JUROR: Yes.
THE DEPUTY CLERK: Who shall speak for you?
JUROR: (In unison) Our foreperson.

90a
THE COURT: Well done.
THE DEPUTY CLERK: Madam foreperson, has the
verdict form which has been submitted to the jury been
answered?
JUROR: Yes.
THE COURT: Is the form signed and dated by you?
JUROR: Yes.
THE DEPUTY CLERK: Ms. Saah will now collect
the verdict form to present it to the Court.
THE COURT: Thank you, ma’am.
(Pause.)
THE COURT: Okay. Do you have -- Is this the
special verdict sheet? Do you have an extra copy of the
special verdict sheet? Shante doesn’t have it to ask the
questions.
THE DEPUTY CLERK: I’ll pull it up.
THE COURT: All right. Is it on your screen? Bear
with us one second, folks. I’d like counsel to approach
if I could please while we’re waiting.
(Bench conference.)
THE COURT: I don’t want to release them and then
bring them back. So if it is a plaintiff’s verdict and we
go on to a trial on punitives, I -- if Mr. Wantou can’t be
here on Monday, I understand that. And if we can’t do
it tomorrow, then I’m going to release this jury and we
will talk about whether or not there is to be a second

91a
trial before a new jury on the issue of punitives. It’s not
ideal, but it happens because if someone gets reversed,
it goes down, it’s a remand, do it that way. And then we
would talk about that. What I would do is I would clear
up any post-trial motions, if there were any, get that
out of the way and move forward to schedule that. It
would be very short, obviously, and it would be -- but
we would do it that way. That, if it’s acceptable to you,
then whatever the verdict is today, I can release this
jury. I don’t want them to be told that they got to come
back at sometime in the future maybe weeks away.
That’s just not good for anybody. Is that acceptable to
everybody?
MR. HARRIS: Yes.
MR. KENNEY: Yes.
THE COURT: All right, good. (Open court.)
THE COURT: All right. Shante, are we ready?
THE DEPUTY CLERK: Yes, sir.
THE COURT: Thank you, ma’am.
THE DEPUTY CLERK: Special verdict sheet, “Do
you find that plaintiff Stephane Wantou Siantou has
proved by preponderance of the evidence that the
defendant CVS RX Services, Inc. subjected him to
retaliation in violation of Title VII of the Civil Rights
Act of 1964, 42 U.S.C. Section 1981 and the Maryland
Fair Employment Act -- excuse me, Practices Act?
JUROR: Yes.

92a
THE COURT: If you answered “yes” to question one,
what amount of compensatory damages, if any, do you
award the plaintiff?
JUROR: One hundred and twenty-five thousand
dollars.
THE COURT: Counsel, do you wish to have the jury
polled?
MR. HARRIS: Yes, Your Honor.
THE COURT: All right. You can sit down, ma’am.
THE DEPUTY CLERK: Madam foreperson, having
delivered the verdict of the jury, is that your verdict
also?
JUROR: Yes.
THE DEPUTY CLERK: Juror Number One, having
heard the verdict to your foreperson, is that your
verdict also?
JUROR: Yes.
THE DEPUTY CLERK: Juror Number Two, having
heard the verdict of your foreperson, is that your
verdict also?
JUROR: Yes.
THE DEPUTY CLERK: Juror Number Three,
having heard the verdict of your foreperson, is that
your verdict also?
JUROR: Yes.

93a
THE DEPUTY CLERK: Juror Number Four, having
heard the verdict of your foreperson, is that your
verdict also?
JUROR: Yes.
THE DEPUTY CLERK: Juror Number Five, having
heard the verdict of your foreperson, is that your
verdict also?
JUROR: Yes.
THE COURT: Juror Number Six, having heard the
verdict of your foreperson, is that your verdict also?
JUROR: Yes.
THE DEPUTY CLERK: Juror Number Seven,
having heard the verdict of your foreperson, is that
your verdict also?
THE DEFENDANT: Yes.
THE DEPUTY CLERK: Juror Number Nine, having
heard the verdict of your foreperson, is that your
verdict also?
JUROR: Yes.
THE COURT: Members of the jury, you have heard
the verdicts and answers thereto as delivered by your
foreperson and they have been recorded, and do each of
you agree? If so, say, I do.
JUROR: (In unison) I do.
THE DEPUTY CLERK: Verdict recorded.

94a
THE COURT: All right. Ladies and gentlemen,
thank you for your service. I don’t know whether your
lunch ever made it back there, but it’s coming. So,
you’ve earned it and might as well have it. What I
typically do is I like to come back and just thank the
jurors individually and just take a minute to find out
from you whether there’s anything that we can do in
the court to make the experience for jurors in the
future a better experience. I can’t do anything about
the weather and I can’t do anything about the heating,
ventilation, air conditioning and the lights, but other
than that, if there are things we can improve upon, I
want to know about it so we can make the experience
as good as possible for our jurors in the future. You
don’t have to stay. You’re free to go and -- And that’s
right, counsel, correct? There’s no disagreement about
that, the jury is free to go?
MR. KENNEY: That’s correct, Your Honor.
THE COURT: Okay. And then what I will do is just
come back, make sure we’re okay with that and then
you may leave. If any of you have any forms that your
employer requires that we fill out to make sure that
they know that you were on juror duty, we’ll be happy
to do that and we can answer any questions you might
have. Thank you very much for your time and your
service and your attention, and we are now in recess.
THE DEPUTY CLERK: All rise for the jury.
(Jury excused.)
THE COURT: All right. Let’s have a seat. Counsel,
I want to -- maybe we should just have -- you all can
reflect, talk to yourselves and we’ll have a telephone

95a
call about further scheduling. Here is ways we can do
it: I mean, there’s going to be -- if there is to be a posttrial motions, I want to set a deadline for that and get
that done. And then I want to consider getting that
done or whether I want to just set this in for a new trial
if the plaintiffs intend to proceed for punitives, you
know, that’s a discussion you’ll have to have with your
client. And if so, then I don’t think we need any
discovery. I want to find out what your thoughts are on
that and get something scheduled. So that if there’s to
be briefing, we get it briefed surgically and quickly, and
then decide where we’re going. If there is to be a second
phase trial on punitives, it will be a short trial and I’ll
want to talk about scheduling that, and get it on the
calendar as quickly as we can do it. And when we talk,
we will set deadlines for any briefing, but I’d like to
have you all talk among yourselves first just to see
what your thoughts are so I can set a schedule that’s
realistic. Will that work for you, Mr. Kenney?
MR. KENNEY: Yes, Your Honor.
THE COURT: And how about you, Mr. Harris, Mr.
Moretta?
MR. HARRIS: Yes.
THE COURT: Okay, all right. Then we will -- Is
anyone available to talk tomorrow? Are you on the
road?
MR. HARRIS: I can talk to tomorrow.
MR. KENNEY: I can talk, Your Honor.

96a
THE COURT: Okay. How about tomorrow
afternoon? Let’s see what it looks like on the calendar.
Oh, Lisa, are you there?
THE LAW CLERK: I’m here.
THE COURT: What time can we talk tomorrow
afternoon?
THE LAW CLERK: Tomorrow afternoon we could
talk any time after 2:15.
THE COURT: How about -- would 2:30 work, folks?
MR. HARRIS: Yes.
THE COURT: Okay.
MR. KENNEY: That would work, Your Honor. Your
Honor, my client said he -- I don’t want to -- said he
could show up on Monday. I’m sure –
THE COURT: Well, it’s too late now.
MR. HARRIS: -- it’s too late.
THE COURT: It’s too late now. I’ve released the
jury. That’s why I asked you beforehand. That’s not
going to happen. If there’s going to be a second phase,
it’s going to be rescheduled and we’re going to have a
new jury, all right. Then I think we’re in recess. So, I
just want to come down and thank you again for your
hard work, let you go and I will talk to you tomorrow at
2:30.
(Pause.)

97a
MR. HARRIS: Your Honor, before we’re excused,
are we going to have -- tomorrow’s discussion, will that
also include post-trial motions?
THE COURT: Absolutely. I want to do it -- I have no
firm notion of, sort of, how to do it. If it’s post-trial
motions, then you might say on the evidence that’s
already been heard, as a matter of law there could be
no punitives. You’ll want to oppose that and then I
would decide. If that’s the case, you know, then is there
going to be a new trial? Is there a whole new trial? Is
there no new trial? All those things probably should be
worked out before we actually set the trial and have a
trial, so we should know where we’re doing. So, I think
we’ll talk about the whole thing. Where do we go from
here? What makes sense? What’s the schedule? I want
to get this thing done. You all deserve finality, at least,
at this stage of the proceedings and I don’t want you to
have to wait too long before we can get it for you, okay.
So, open field. I just want you to think about it, talk
about it and have some suggestions for me if you can,
okay.
(The matter concluded at 1:04 p.m.)

